<html>
<title> - LEGISLATIVE HEARING ON H.R. 331, H.R. 821, H.R. 1357, H.R. 1796, H.R. 1842, H.R. 2011, H.R. 2150, H.R. 2210, H.R. 2327, AND A DRAFT BILL ENTITLED, ``TO AMEND TITLE 38, UNITED STATES CODE, TO AUTHORIZE THE SECRETARY OF VETERANS AFFAIRS TO MAKE AN ALTERNATIVE ELECTION ON BEHALF OF CERTAIN INDIVIDUALS WHO ARE SUBJECT TO A BAR TO DUPLICATION OF ELIGIBILITY FOR EDUCATIONAL ASSISTANCE UNDER THE LAWS ADMINISTERED BY THE SECRETARY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]









 LEGISLATIVE HEARING ON H.R. 331, H.R. 821, H.R. 1357, H.R. 1796, H.R. 
  1842, H.R. 2011, H.R. 2150, H.R. 2210, H.R. 2327, AND A DRAFT BILL 
  ENTITLED, ``TO AMEND TITLE 38, UNITED STATES CODE, TO AUTHORIZE THE 
SECRETARY OF VETERANS AFFAIRS TO MAKE AN ALTERNATIVE ELECTION ON BEHALF 
   OF CERTAIN INDIVIDUALS WHO ARE SUBJECT TO A BAR TO DUPLICATION OF 
 ELIGIBILITY FOR EDUCATIONAL ASSISTANCE UNDER THE LAWS ADMINISTERED BY 
                             THE SECRETARY

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JUNE 26, 2013

                               __________

                           Serial No. 113-25

                               __________

       Printed for the use of the Committee on Veterans' Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  U.S. GOVERNMENT PRINTING OFFICE

82-241                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





















                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranking 
MIKE COFFMAN, Colorado               Minority Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD R. WENSTRUP, Ohio               DINA TITUS, Nevada
                                     ANN M. KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.




























                            C O N T E N T S

                               __________

                             June 26, 2013

                                                                   Page

Legislative Hearing On H.R. 331, H.R. 821, H.R. 1357, H.R. 1796, 
  H.R. 1842, H.R. 2011, H.R. 2150, H.R. 2210, H.R. 2327, And A 
  Draft Bill Entitled, ``To Amend Title 38, United States Code, 
  To Authorize The Secretary Of Veterans Affairs To Make An 
  Alternative Election On Behalf Of Certain Individuals Who Are 
  Subject To A Bar To Duplication Of Eligibility For Educational 
  Assistance Under The Laws Administered By The Secretary........     1

                           OPENING STATEMENTS

Hon. Bill Flores, Chairman, Subcommittee on Economic Opportunity 
  (EO)...........................................................     1
    Prepared Statement of Hon. Flores............................    29
Hon. Ann M. Kirkpatrick, Member, Committee on Veterans' Affairs,.     2
    Hon. Jeff Miller, Chairman, Full Committee on Veterans' 
      Affairs....................................................     2

                               WITNESSES

Hon. Ken Calvert, U.S. House of Representatives (CA-42)..........     4
    Prepared Statement of Hon. Calvert...........................    29
Hon. Elijah E. Cummings, U.S. House of Representatives (MD-07)...     5
Hon. John Delaney, U.S. House of Representatives (MD-06).........     6
    Prepared Statement of Hon. Delaney...........................    30
Hon. Alan Grayson, U.S. House of Representatives (FL-09).........     7
    Prepared Statement of Hon. Grayson...........................    30
Hon. Bill Johnson, U.S. House of Representatives (OH-06).........     9
    Prepared Statement of Hon. Johnson...........................    32
    Executive Summary of Hon. Johnson............................    32
Hon. Paul Cook, U.S. House of Representatives (CA-08)............    10
Mr. Curtis L. Coy, Deputy Under Secretary for Economic 
  Opportunity, Veterans Benefits Administration, U.S. Department 
  of Veterans Affairs............................................    11
    Prepared Statement of Mr. Coy................................    33
    Accompanied by:

      Mr. John Brizzi, Deputy Assistant General Counsel, U.S. 
          Department of Veterans Affairs
Mr. Frank C. DiGiovanni, Director, Training Readiness and 
  Strategy, Office of the Under Secretary of Defense for 
  Personnel and Readiness, U.S. Department of Defense............    12
    Prepared Statement of Mr. DiGiovanni.........................    38
    Executive Summary of Mr. DiGiovanni..........................    39
Mr. Ryan M. Gallucci, Deputy Director, National Legislative 
  Service, Veterans of Foreign Wars of the United States.........    19
    Prepared Statement of Mr. Gallucci...........................    40
Mr. Jeffrey Steele, Assistant Director, National Legislative 
  Commission, The American Legion................................    21
    Prepared Statement of Mr. Steele.............................    43
MG Andrew ``Drew'' Davis, USMC (Ret.), Executive Director, The 
  Reserve Officers Association...................................    23
    Prepared Statement of Mr. Davis..............................    47

                        STATEMENT FOR THE RECORD

Hon. Tammy Duckworth (IL-08).....................................    50
U.S. Department of Labor.........................................    51
Vietnam Veterans of America......................................    52

 
 LEGISLATIVE HEARING ON H.R. 331, H.R. 821, H.R. 1357, H.R. 1796, H.R. 
  1842, H.R. 2011, H.R. 2150, H.R. 2210, H.R. 2327, AND A DRAFT BILL 
  ENTITLED, ``TO AMEND TITLE 38, UNITED STATES CODE, TO AUTHORIZE THE 
SECRETARY OF VETERANS AFFAIRS TO MAKE AN ALTERNATIVE ELECTION ON BEHALF 
   OF CERTAIN INDIVIDUALS WHO ARE SUBJECT TO A BAR TO DUPLICATION OF 
 ELIGIBILITY FOR EDUCATIONAL ASSISTANCE UNDER THE LAWS ADMINISTERED BY 
                             THE SECRETARY

                        Wednesday, June 26, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:20 p.m., in 
Room 340, Cannon House Office Building, Hon. Bill Flores 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Flores, Runyan, Cook, Wenstrup, 
and Kirkpatrick.
    Also Present: Representatives Miller, O'Rourke.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Good afternoon. We have a full plate of bills 
and witnesses this afternoon so I am going to limit my opening 
remarks to comment on the VA's testimony on my own bill, which 
is H.R. 2481.
    Yesterday, I introduced H.R. 2481 in response to 
suggestions from the Atlanta regional processing office team 
who noted that certain types of mistakes on the applications 
for Post-9/11 G.I. Bill benefits cause significant delays in 
processing original claims. Apparently, some veterans are 
inadvertently revoking programs for which they have no 
entitlement, or they choose certain older programs and give up 
the Post-9/11 benefit. My bill would have the VA review an 
application and if it is obvious that the veteran made what 
appears to be an inadvertent error then the VA would be able to 
choose the best program, inform the veteran, and offer the 
veteran an opportunity to reject the VA's recommendation. This 
process would not stop their application from moving forward 
and could substantially reduce processing times for original 
claims.
    The VA has already provided us with technical assistance on 
this bill and I am grateful that they have offered additional 
help. Given that assistance and staff conversations I am 
hopeful that the VA will comment on this bill today and we will 
have further discussion during their testimony, or possibly 
after their testimony.
    We have several statements for the record today. And 
without objection we will include those in the record.
    I now recognize the distinguished Ranking Member Ms. 
Kirkpatrick for her opening remarks.

    [The prepared statement of Hon. Flores appears in the 
Appendix]

          OPENING STATEMENT OF HON. ANN M. KIRKPATRICK

    Mrs. Kirkpatrick. Thank you, Mr. Chairman. Good afternoon. 
I would like to thank everyone for joining us and I would like 
to thank our witnesses for taking time to testify and answer 
our questions.
    We have a number of bills before us today which extend or 
refine important veterans programs, including those for 
homeless veterans reintegration, and veterans educational 
assistance, among other issues. My colleagues have written and 
introduced strong legislation focused on improving the lives of 
our veterans. I look forward to seeing how these efforts today 
will impact our veterans across the Nation.
    Thank you, Mr. Chairman, for scheduling this hearing to 
review these bills. I look forward to the testimony and 
discussion we will have today and I yield back.
    Mr. Flores. Thank you, Mrs. Kirkpatrick. I would like to 
begin by recognizing Chairman Miller for his testimony. 
Chairman Miller, you are recognized for five minutes.

             OPENING STATEMENT OF HON. JEFF MILLER

    Mr. Miller. Thank you very much, Mr. Chairman, Ranking 
Member Kirkpatrick. We all appreciate the opportunity to appear 
before you at the Subcommittee today. And to my colleagues here 
on the Committee and at the witness table as well, it is good 
to see everybody.
    I want to talk to you a little bit this afternoon about my 
bill 2327, the Veterans Economic Opportunity Administration Act 
of 2013. And I think everybody in this room is well aware of 
the number of claims that the Veterans Benefits Administration 
is facing right now. And according to the June 24th Monday 
morning report, we get a report every Monday morning, there 
were 801,931 compensation and pension claims in the inventory.
    Now this is not a new problem. Using the data from the VA 
Web site the total C&P inventory was 221,729 as of June of 
2000. And I want to show you how it has increased since then. 
327,275 in June of 2004. In June of 2008 it was 404,161. And 
913,690 in June of 2012.
    Now we all know that we have had Wars in Iraq and 
Afghanistan, as well as the Nehmer decision that the court 
required to reopen tens of thousands of Vietnam-era claims and 
they have all increased the workload at the department. And to 
meet that increased workload, VBA has devoted the lions share 
of 14,415 of its 20,815 employees to work on these C&P or 
compensation and pension claims. So if you review the testimony 
of the VSOs, you will also see that they too focus mostly on 
the compensation program. Now I am not saying that the focus is 
wrong, just that that is the fact.
    One of this Committee's ways of ensuring that the 
disability claims backlog and related issues did not consume an 
inordinate amount of focus to the neglect of other important 
programs was to undergo a reorganization. Specifically, the 
Subcommittee of Economic Opportunity was created to specialize 
oversight attention on VA programs that enhance economic 
opportunity. And the result of that reorganization is very 
clear. Sustained oversight on economic opportunity programs and 
issues, organization and passage of major legislation such as 
the Vow to Hire Heroes Act and provisions to assist VA in 
meeting and exceeding acquisition goals for small businesses 
owned by service-disabled veterans.
    Now I believe that VA, too, would benefit from this type of 
specialization and that is what H.R. 2327 would bring about. It 
would create a new fourth administration to handle VA programs 
that we typically regard as providing economic opportunity. 
Similar to this Subcommittee's focus, those issues are 
education, vocational rehab, loan guarantee, and small 
business. And this shift would in fact reorganize the value of 
veterans economic security programs that promote employment.
    So under H.R. 2327 the Veterans Economic Administration 
would be coequal to the VBA, the VHA, and NCA, and would be 
headed by an Under Secretary nominated by the President and 
confirmed by the Senate. The bill would require nominees to 
have senior level experience in managing similar programs in 
the private sector. The bill would also require that VA would 
staff the new administration from existing resources. And my 
bill would have two immediate and I believe very positive 
effects. First, it would allow the Under Secretary for Veterans 
Benefits to concentrate efforts on reducing the compensation 
backlog, a challenge sufficient for its own specialized focus 
and dedicated resources. Second, it would allow the new Under 
Secretary for Economic Opportunity to improve the visibility 
and resourcing of economic opportunity programs. That will 
obviously bring what some call creative tension to the budget 
process and hopefully result in more effective use of 
resources.
    One specific advantage over the current structure is that 
this bill would place specific experimental requirements on one 
person's appointed requirements as the Under Secretary for 
Economic Opportunity. And anyone appointed would have to have 
significant private sector experience in one or more of these 
types of programs administered by the Veterans Economic 
Opportunity Administration.
    Mr. Chairman, this bill represents a positive step to 
assist the VA in addressing its claims issues and to give 
renewed importance to programs that enable veterans and their 
families to improve their lives. It is long past due for 
economic opportunity issues to be at the forefront and in the 
center as it relates to VA. And I thank you for the opportunity 
to testify this afternoon.
    Mr. Flores. Thank you, Chairman Miller. We will now start 
with the first panel. With us today are colleagues Ken Calvert, 
Elijah Cummings, John Delaney, Alan Grayson, and Bill Johnson. 
Gentlemen, you will each be recognized for five minutes. Let us 
begin with Mr. Calvert.

 STATEMENTS OF HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
   FROM THE STATE OF CALIFORNIA; HON. ELIJAH E. CUMMINGS, A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF MARYLAND; HON. 
 JOHN DELANEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
MARYLAND; HON. ALAN GRAYSON, A REPRESENTATIVE IN CONGRESS FROM 
 THE STATE OF FLORIDA; AND HON. BILL JOHNSON, A REPRESENTATIVE 
               IN CONGRESS FROM THE STATE OF OHIO

                 STATEMENT OF HON. KEN CALVERT

    Mr. Calvert. Thank you, Chairman Flores, Ranking Member 
Kirkpatrick, and the distinguished Members of the Subcommittee. 
Thank you for inviting me here to testify today on H.R. 331, a 
bill that would streamline the VA process to the benefit of our 
veterans.
    The issue is fairly specific to community college districts 
that have multiple colleges as part of their districts. 
Currently, the Department of Veterans Affairs requires 
community colleges to certify that their veteran students are 
enrolled for a specific number of classes before the VA will 
disburse student benefits.
    Ranking Member Takano's congressional district and my 
district include a community district with three colleges. The 
community college district operates under uniform curriculum 
for all three colleges. Under current regulations, each of the 
three colleges must write letters to other colleges within the 
district to verify their classes meet the regulations. This 
unnecessary paperwork delays the benefits of the veterans and 
increases the processing time and cost to the college district 
as well as the VA. The process is unnecessary because one, all 
the colleges' curriculum is approved at the district level and 
is aligned across all the colleges. The district registration 
system includes an option for a student to register at any one 
of the colleges the same term. Three, the district computer 
system contains all student and course information on one 
record that can be assessed and viewed at any of the colleges. 
And four, a student's official transcript includes courses 
taken at all of the three colleges.
    H.R. 331 would correct that problem by permitting each 
college in the district to certify veterans for all classes 
attended within the district rather than just for classes 
attended at that particular college. H.R. 331 would update the 
rules which means veterans would receive their benefits sooner 
and the VA would have less paperwork to process.
    H.R. 331 provides an important and necessary legislative 
fix to a problem that is impacting veterans in my district and 
Congressman Takano's congressional district, and which could be 
impacting thousands of veterans across the country.
    I would like to personally thank Chairman Flores' staff for 
their work and advice in drafting this bill. And I welcome any 
questions the Subcommittee may have at this time.

    [The prepared statement of Hon. Calvert appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Calvert. Mr. Cummings, you are 
recognized for five minutes.

               STATEMENT OF HON. ELIJAH CUMMINGS

    Mr. Cummings. Thank you very much Mr. Chairman, Ranking 
Member Takano, and Members of the Subcommittee for inviting me 
to testify today. For the last two years, I have aggressively 
investigated illegal foreclosures, inflated fees, and other 
abuses by banks against servicemembers, veterans, and their 
families.
    In my opinion, no one is more deserving of our Nation's 
help than our military servicemembers fighting for our 
freedoms. Yet under current law, certain servicemembers, 
veterans with disabilities, and surviving spouses are not 
receiving the critical protections they need and deserve. As a 
result, banks are foreclosing on homes at the very moment when 
our heroes and their families deserve our support. As a country 
we can do better, we must do better.
    That is why I introduced H.R. 1842, the Military Family 
Home Protection Act. This is a common sense bill that will 
better protect military families and veterans with disabilities 
by closing loopholes and providing needed reforms to the 
Servicemembers Civil Relief Act.
    This legislation is supported by the American Legion, 
Veterans of Foreign Wars, Paralyzed Veterans of American, 
Disabled American Veterans, Military Officers Association of 
America, Gold Star Wives of America, and Iraq and Afghanistan 
Veterans of America, all of whom have written letters of 
support.
    Mr. Flores. Without objection.
    Mr. Cummings. Thank you very much, Mr. Chairman.

    [The attachment appears in the Appendix]

    Mr. Cummings. This legislation has had overwhelming 
bipartisan support over the past two years. More than a year 
ago, I came before this Committee and testified about similar 
legislation, H.R. 5747. This Committee came together in a 
bipartisan way to support and pass that bill. And when the 
legislation was included as an amendment to the Defense Bill 
last year, it passed by an overwhelming bipartisan vote of 394 
to 27. Unfortunately the bill never became law because of 
objections by one Senator who was seeking additional 
information. This month the House came together again in 
solidarity and passed the legislation by voice vote as an 
amendment to the National Defense Authorization Act. And I 
thank every Member of this Committee for your support. It could 
not have happened without you.
    I believe that if we keep up our efforts and we educate 
people about what this bill does, we will finally be able to 
deliver this legislation to the President's desk. H.R. 1842 
will ensure that servicemembers who are placing their lives at 
risk overseas will not also have to fight here at home to keep 
a roof over their heads and those of their families.
    This bill would extend foreclosure protections to the 
surviving spouses of servicemembers who are killed in the line 
of duty. The legislation would extend foreclosure protections 
to veterans who become disabled due to service-connected 
injuries under Chapter 61 of the U.S. Code, and servicemembers 
who are placed in convalescent status due to illness or injury.
    Finally, this bill would increase the civil penalties for 
mortgage related violations under the SCRA to better reflect 
the seriousness of such violations and the tremendous impact 
these violations have on the lives of servicemembers, veterans 
with disabilities and surviving spouses.
    We owe it to our men and women in uniform, Mr. Chairman, to 
take action now. And this legislation provides a common sense, 
bipartisan, and widely supported protections to those who 
deserve them the most. I ask this Committee to support this 
effort to provide our men and women in uniform with the 
protections they desperately need and of course they deserve. 
And with that, Mr. Chairman, I yield back.
    Mr. Flores. Thank you, Mr. Cummings. Mr. Delaney?

                 STATEMENT OF HON. JOHN DELANEY

    Mr. Delaney. Thank you Chairman Flores and Ranking Member 
Kirkpatrick and my other colleagues for the opportunity to 
address this Subcommittee on H.R. 2011.
    The Veterans Advisory Affairs Committee has long been a 
bipartisan initiative in this House. And the reason for that is 
simple. Members of Congress and this grateful Nation truly want 
our veterans to receive the benefits they have earned. There is 
also a strong belief in our country that we need to do more to 
address unemployment and to ease our veterans' transition to 
civilian life. For example, the current unemployment rate for 
Iraq veterans is over ten percent. That is too high.
    That is the motivation behind H.R. 2011, the Veterans 
Advisory Committee on Education Improvement Act. Specifically 
to ensure that current educational programs are working 
properly our veterans need a voice in the VA.
    This bipartisan legislation does two very important things. 
First, it extends the Veteran Advisory Committee on Education 
through 2015. Absent congressional action, the Veterans 
Advisory Committee on Education will sunset at the end of this 
year, which would be unfortunate. This Committee, which is 
currently comprised of veterans, policy experts, and advocates, 
advises the VA on how to improve educational and job training 
programs.
    Second and importantly, this legislation expands the 
Committee to include Post-9/11 veterans. The reasons for this 
are obvious. We need to make sure their voice is heard at the 
VA.
    This is a Committee that works. Since 2003, the VA has 
implemented 57 recommendations from the Committee on how to 
improve job training and educational programs. These 
recommendations include improvements to the Post-9/11 G.I. 
Bill, which provided educational benefits to over 600,000 
veterans in 2012 alone. The Committee has also updated the VA's 
Principles of Excellence program, which requires that 
educational institutions end fraudulent and aggressive 
recruiting programs and provide veterans with a timeline for 
graduation.
    We all understand that our veterans unemployment rate is 
too high. And when we talk about improving existing programs, I 
believe it is essential that the VA is responsive to those 
directly affected. I know every Member of the Veterans' Affairs 
Committee takes their responsibilities to our veterans very 
seriously; all of us in the House do as well. I thank my 
colleague Mr. Renacci and my other cosponsors for their support 
of this bill. Helping our veterans transition to civilian life 
is one of the most critical challenges facing our country. This 
legislation gives our Post-9/11 veterans a voice, helps ensure 
that our current programs are working, and helps identify ways 
that we can improve. The bill is about smart government. It is 
about more efficient and more effective government.
    I thank the Committee for their time this afternoon and 
look forward to collaborating with you on this important 
legislation. Thank you.

    [The prepared statement of Hon. Delaney appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Delaney. Mr. Grayson?

                 STATEMENT OF HON. ALAN GRAYSON

    Mr. Grayson. Thank you, Chairman Flores and Ranking Member 
Kirkpatrick. I appreciate the opportunity to join you in this 
legislative hearing. I am here today to address H.R. 821, a 
bill to amend the Servicemembers Civil Relief Act to provide 
surviving spouses with certain protections relating to 
mortgages and mortgages foreclosures and for other purposes. In 
plain English, this bill would extend mortgage foreclosure 
protections to the surviving spouses of men and women who are 
killed while serving in the United States military.
    Under current law, members of the military are shielded 
from foreclosure while they are on active duty. This bill would 
extend the same protection to a surviving spouse of a 
serviceman who is killed while serving our Nation. H.R. 821 is 
a reintroduction of last term's H.R. 1263, which Bob Filner, my 
good friend and the former Chairman of the Veterans' Affairs 
Committee, introduced and passed through the House of 
Representatives by a voice vote during the last Congress. 
Unfortunately the Senate never acted on the bill.
    The only difference between Congressman Filner's bill and 
my bill appears on section three. It is a slight change 
resulting in a shorter bill that reflects intervening changes 
in the law made by the Honoring America's Veterans and Caring 
for Camp Lejeune Families Act of 2012. Previously, 
servicemembers were afforded foreclosure protections for nine 
months after they were separated from service. They now have a 
full year and this bill now reflects that.
    Mr. Chairman and Members of the Subcommittee, Florida is a 
state that produces a high number of men and women who enlist 
in our armed forces. It is also a state where a large number of 
veterans now call home. Unfortunately Florida has lost 343 of 
its sons and daughters in Iraq and Afghanistan, a number second 
only to Texas. Given that statistic and given the fact that I 
represent a district that is consistently ranked at or near the 
top in foreclosure activity nationwide, I felt compelled to 
reintroduce this bill.
    This Committee held multiple hearings on the issue 
throughout the last Congress and there were consistent reports 
on the need for it. In January of 2011 a J.P. Morgan Chase 
official told NBC News that over 4,000 servicemembers had been 
illegally overcharged on their mortgage interest rates and that 
many military families had been improperly foreclosed upon in 
violation of the Servicemembers Civil Relief Act. This 
revelation addressed not only servicemembers who had been SCRA 
protection subjects but also covered the actions of only one 
bank. Surviving spouses are not afforded the same protection by 
the SCRA and we can only guess how many unfortunate husbands 
and wives lost their homes when they needed our protection the 
most.
    Later last year, more allegations surfaced of SCRA 
violations by J.P. Morgan Chase and other lending institutions. 
In response, this Committee held oversight hearings to review 
these allegations and received testimony from Captain Jonathan 
Rawls and Ms. Julia Rawls about their troubled with J.P. Morgan 
Chase. And in response to that testimony and other revelations 
that came to light through the Committee's continuous oversight 
of SCRA abuses, H.R. 821 requires lending institutions to 
employ or designate an SCRA compliance officer. Every bank must 
take the SCRA seriously and every bank must have at least one 
person responsible to ensure the institution's compliance.
    Servicemembers and veterans as well as their families 
should have an opportunity to avoid the black marks on their 
credit history by working with members to minimize their chance 
of foreclosure. Some military families experience 
understandable difficulties often related to owning a home 
where a servicemember is stationed in the transition from the 
military to the civilian world. And these problems are only 
magnified in the tragic instance of a servicemember's death. 
When a family grieves over the loss of a servicemember, the 
resulting change in income is likely to force a surviving 
spouse to make difficult financial decisions, including whether 
or not he or she will keep or sell the home. Surviving families 
should be given sufficient time after the loss of a loved one 
to refinance, to make arrangements with the lender to 
restructure the loan, or to sell the house. Unfortunately right 
now, they are not afforded the extra time they often need. Mr. 
Chairman, this is a serious problem and it is one that can be 
solved. I thank you for your time today.
    If I just may add a short personal note, I will call your 
attention to the fact that Congressman Filner served in this 
body for 20 years and served as the Chairman of this Committee. 
All too often we are judged only by our electoral successes and 
not judged enough by our lawmaking. I think it would give every 
Member of this Committee as well as me personally a great pride 
to call Congressman Filner and tell him, ``Bob, your bill is 
now law.'' Thank you very much.

    [The prepared statement of Hon. Grayson appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Grayson. Mr. Johnson, you are 
recognized for five minutes.

                 STATEMENT OF HON. BILL JOHNSON

    Mr. Johnson. Thank you, Chairman Flores, Ranking Member 
Kirkpatrick, and Members of the Subcommittee. I appreciate the 
opportunity to testify before you on H.R. 1357, legislation I 
introduced to amend the definition of full-time for technical 
training programs under the Veterans Retraining Assistance 
Program, or VRAP.
    As an Air Force veteran who served as a Subcommittee 
Chairman on the House Veterans' Affairs Committee last 
Congress, I was proud to support the Vow to Hire Heroes Act of 
2011. This important legislation provided several provisions to 
assist unemployed veterans, including improvements to the 
Transition Assistance Program, or TAP; veterans tax credits; 
requirements for translating military skills and training into 
commercial opportunities; and expanded educational and training 
benefits, including VRAP.
    The VRAP program provides unemployed veterans aged 35 
through 60, who are not eligible for other VA education benefit 
programs, up to 12 months of full-time training assistance. 
Over 53,000 veterans are enrolled in training programs through 
VRAP. And the Department of Veterans Affairs is still accepting 
applications from eligible veterans.
    An unintended shortfall of VRAP came to my attention last 
fall when unemployed veterans in eastern and southeastern Ohio 
who were approved for VRAP were unable to find eligible 
technical training programs for their chosen occupation. The 
reason being that programs approved for VRAP must be full-time, 
which is defined as requiring 18 to 22 seat-time hours. As 
these veterans discovered, the majority of technical training 
programs that are considered to be full-time outside of the 
VA's definition fall short of VRAP's seat-time requirement. For 
example, several veterans from Ohio's sixth district wished to 
use their approved VRAP benefits to complete a welding program, 
an occupation on the rise in eastern and southeastern Ohio due 
to increased oil and gas development in the region.
    While there were welding programs available in the area, 
they did not meet the seat-time hour requirement. Some of these 
programs, such as the welding programs at the Washington County 
Career Center, are even approved by the VA under regular G.I. 
Bill benefits, but as part-time programs. As programs under 
VRAP must be full-time, these veterans were approved for VRAP 
benefits but unable to use them.
    H.R. 1357 is intended to fix this unintended obstacle and 
expand opportunities for unemployed veterans to complete 
technical training programs. Specifically, this legislation 
would amend the VRAP definition of full-time for technical 
training programs to only require 16 seat-time hours, so long 
as these programs are also approved by the VA for other 
educational benefits.
    The purpose of VRAP is to give America's veterans access 
and the opportunity to enhance their skills, enabling them to 
better compete in today's job market. In my view, the 
difference of a few seat-time hours should not prevent a 
veteran from taking a training program that will enhance their 
ability to be hired, particularly if the veteran ends up with a 
comparable certificate or degree from other institutions that 
require slightly more seat-time hours.
    Chairman Flores, Ranking Member Kirkpatrick, thank you 
again for the opportunity to speak on this important 
legislation, H.R. 1357. I am hopeful that this legislation will 
be favorably considered by the Veterans' Affairs Committee so 
as to provide our Nation's unemployed heroes with more 
opportunities to enhance their skills and find gainful 
employment. And with that, I yield, sir.

    [The prepared statement of Hon. Johnson appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Johnson. Mr. Cook, you are 
recognized for five minutes.

                  STATEMENT OF HON. PAUL COOK

    Mr. Cook. Thank you, Mr. Chair. My bill H.R. 2150 
reauthorizes the Homeless Veterans Reintegration Program, or 
the HVRP, which I probably will not use that acronym anymore 
because it is too long. But this bill will continue essential 
services that assist homeless veterans in finding jobs, whether 
they have been separated for one day or 20 years. It provides 
grants to organizations that assist homeless veterans directly 
in job training, helping them to return to the workforce and 
remain independent.
    These organizations have the benefit of experience, 
successfully placing scores of veterans in paying jobs and 
developing relationships with employers. In addition to this 
experience such as job counseling and assistance in writing 
resumes, they provide clothing and transportation. They also 
provide medical and substance abuse treatment.
    If we fail to act, this program will end this year leaving 
veterans without this job assistance from their country and the 
government they served so well. We must vote to extend this 
program to fulfill our promise to our heroes so that they do 
not, did not return from war simply to be cast aside.
    I was very active in similar programs in California. Those 
who know me know I am very, very passionate about this. I am a 
Vietnam veteran. I have seen members of my platoon when they 
came back and quite frankly our state and our country just 
forgot about them 100 percent. It is a different culture going 
from the military back to civilian life. You know, you go from 
an organization that really cares about you to one where it is 
entirely different. And we as a country, as a state, in 
different localities, have had a bad record. And this bill is 
one of those things that can help. We have got a lot ways to 
go. And I hope you will support me. And I want to thank the 
Chairman, Chairman Flores, Ranking Member Takano, and Colonel 
Wenstrup for cosponsoring this bill. Thank you, Mr. Chairman, I 
yield back my time.
    Mr. Flores. Thank you, Mr. Cook. I thank the panel. Are 
there any questions for the members of the first panel? If 
there are not, gentlemen, I thank you for your time today. And 
I would like to ask the second panel to come forward.
    With us today on our second panel are Mr. Curtis Coy, 
accompanied by Mr. John Brizzi from the VA, and Mr. Frank 
DiGiovanni from the Department of Defense. Gentlemen, my 
sincerest welcome to each of you. You will each have five 
minutes to summarize your testimony and your complete written 
statements will be made a part of this hearing record. Let us 
start with you, Mr. Coy, you are recognized for five minutes.

   STATEMENTS OF CURTIS L. COY, UNDER SECRETARY FOR ECONOMIC 
OPPORTUNITY, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT 
    OF VETERANS AFFAIRS; ACCOMPANIED BY JOHN BRIZZI, DEPUTY 
ASSISTANT GENERAL COUNSEL, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
   AND FRANK C. DIGIOVANNI, DIRECTOR, TRAINING READINESS AND 
STRATEGY OFFICE OF THE UNDERSECRETARY OF DEFENSE FOR PERSONNEL 
           AND READINESS, U.S. DEPARTMENT OF DEFENSE

                   STATEMENT OF CURTIS L. COY

    Mr. Coy. Good afternoon, Mr. Chairman, Ranking Member 
Kirkpatrick, and Members of the Committee. Thank you for the 
opportunity to be here today to provide VA's views on pending 
legislation. Accompanying me this morning is Mr. John Brizzi, 
Deputy Assistant General Counsel.
    We are certainly encouraged to see those bills aimed at 
improving economic opportunities for our Nation's veterans. We 
are particularly grateful to see legislation that will improve 
the Veterans Retraining Assistance Program; extend the Veterans 
Advisory Committee on Education; allow school consortiums to 
certify enrollment; and extend the Fry Scholarship to those 
families who have borne the ultimate sacrifice. We will provide 
views on the draft bill to improve election requirements for 
the Post-9/11 G.I. Bill program for the record but are 
encouraged to see efforts to help veterans make appropriate 
decisions. VA defers to the Department of Labor and the 
Department of Defense on legislation affecting programs or laws 
administered by those agencies.
    VA is happy to support legislation that would allow 
institutions in a district or consortium to certify a student's 
enrollment regardless of where the student is matriculated.
    We are pleased to support the Fry Scholarship expansion for 
children of servicemembers who die after discharge, but would 
suggest expanding it to 18 months after separation rather than 
just 60 days. VA data shows that most deaths resulting from 
serious service-connected injury occur within those 18 months.
    While we are pleased to support legislation that would 
support VRAP to programs pursued at less than full-time basis 
in prior bills that would extend the VRAP program, we are 
unclear as to the meaning of 16 seat-time hours as required by 
H.R. 1357 and are ready to work with the Committee to address 
those technical issues.
    VA does not oppose Section 4B of the Troop Talent Act of 
2013 that would allow payment for qualifying courses. But we 
would note that VA can already approve courses required for 
license or certification that do not constitute a complete 
program of training.
    As well, VA does not support Section 6 of the bill as we 
are unclear on the need to reestablish the Professional 
Certification and Licensure Advisory Committee as tasks such as 
outreach and auditing for licensing and certification programs 
are ongoing by VA. Finally, it would be extremely challenging 
to nominate members, plan organize, hold meetings, and provide 
a report assessing the feasibility and advisability of 
permitting servicemembers to use educational assistance for 
pursuing civilian employment without being charged entitlement 
all within 180 days.
    VA appreciates the Committee's focus on improving veterans' 
economic opportunities but we are unable to support the 
Veterans Economic Opportunity Administration Act of 2013. We 
believe an appropriate management structure is already in place 
to oversee veterans programs related to economic opportunities.
    Finally, VA is encouraged to see two bills that would amend 
the Servicemembers Civil Relief Act and provide protections 
against mortgage foreclosures. While VA defers to DoD and 
Justice on the merits of these bills, we do have some technical 
concerns with these bills and again would be very happy to work 
with the Committee on them.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity to appear before you today. We would be pleased 
to respond to any questions you or the Members of the Committee 
may have about any of these bills or the other legislation 
discussed in our written testimony.

    [The prepared statement of Curtis Coy appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Coy. Mr. DiGiovanni?

                 STATEMENT OF FRANK DIGIOVANNI

    Mr. DiGiovanni. Chairman Flores, Ranking Member 
Kirkpatrick, distinguished Members of the Subcommittee, good 
afternoon. My name is Frank DiGiovanni and I serve as the DoD's 
Director of Training Readiness and Strategy. I am responsible 
for military training and education policy from a session, 
basic training, through command exercises and engagement. I am 
also a 26-year veteran of the United States Air Force.
    I am here to talk to you about specifically H.R. 1796, the 
Troop Talent Act of 2013. There is written statements provided 
by the department on H.R. 1842 and H.R. 821.
    During the transition process and while they serve in the 
military, our military members achieve great expertise and hard 
skills from their military training experience and education. 
They also receive soft skills in areas of leadership, teamwork, 
and decision-making. These skills are not only valued by the 
military, but we have heard from employees that these are 
sought after skill sets in the private sector as well.
    So H.R. 1796 helps facilitate this process. The DoD 
supports many provisions in the act, including section three 
which directs the Under Secretary of Defense for Personal End 
Readiness to make information available to military members 
about credentialing opportunities. It also asks us to improve 
access to accredited civilian credentialing agencies on 
information as far as the program of instruction for military 
members.
    We would suggest in section three that this access be 
expanded beyond the cited civilian credentialing agencies to 
include agencies such as the Veterans that can include Veterans 
Administration G.I. Bill payments and also state licensing 
boards. One of our examples that we have had very good success 
in working with the states has been with Lansing Community 
College, which is a college focused on military members who 
have been medics and corpsmen. They have an excellent template. 
We think that what they do to give military members credit for 
military training and education experience is something that we 
should try to emulate throughout the other states in the 
country.
    Section four covers the use of transition assistance for 
courses in pursuit of civilian certification and licensing, 
which we support. And also expansion of the NDAA, Section 558 
from fiscal year 2012, a pilot program to include information 
technologies. We defer comments on section six to my 
distinguished colleagues from the Veterans Administration.
    On 1842, the department supports 1842 which adds several 
new sections and coverages to servicemembers, surviving 
spouses, and certain classes of veterans. We feel that H.R. 821 
provides good coverages for surviving spouses, but we believe 
many of the provisions in that act are covered in 1842.
    In closing, we have had an excellent partnership with 
several veterans service organizations who will be speaking 
with you next, so I wanted to tip the hat to those folks. It is 
an outstanding partnership and certainly helps us in getting 
the word out as well as understanding what veterans' needs are 
in the field.
    In closing, the department would like to thank the 
Committee for taking up legislation on these critical issues. 
Our servicemembers bring outstanding leadership, technical 
expertise, and experience to the workplace. These capabilities 
are the direct result of the rigorous training, education, and 
life skills they have gained from serving this country in the 
military. And I cede the rest of my time, sir.

    [The prepared statement of Frank DiGiovanni appears in the 
Appendix]

    Mr. Flores. I thank the panel for their testimony and I 
would like to start with the questions. Mr. Coy, I have three 
questions on H.R. 2481, which is my bill to facilitate a 
smoother processing of Post-9/11 G.I. claims. The first one is 
this, can you tell me why the VA deferred testimony on this? I 
am a little puzzled by it because the bill is the outgrowth of 
a suggestion that came from the staff to try to address a 
problem that was causing unnecessary delays in the processing 
of Post-9/11 G.I. claims. And the VA was also nice enough to 
provide us with some technical assistance so we could get the 
structure of the bill correct. Is it a technical issue? Or does 
the department disagree with the goal of clarifying the process 
for the Post-9/11 G.I. Bill?
    Mr. Coy. Mr. Chairman, we do not have cleared views on this 
bill yet. So we have not, it has not gone through the formal 
process. We certainly look at this bill from a number of 
aspects as the kinds of things that we hope that it will 
accomplish. Most certainly ensuring that our veterans and those 
original claims are processed in a timely manner is critically 
important to us. We have some issues with some aspects of the 
bill and we would be happy to work with the Committee as we 
have done already and had a couple conversations as well to 
ensure that whatever the bill ends up being, it is to 
accomplish what you hope it is supposed to do.
    Mr. Flores. Okay. Would you agree that the long term 
solution to help the veteran, or to eliminate the potential the 
veteran could make mistakes on the application would be to 
fully automate the decision tree, if you will, that is in the 
VONAPP application?
    Mr. Coy. Mr. Chairman, I think any automation of original 
claims is a good thing. Part of the issue here is, as I would 
suggest that some of this is very much a situational 
environment that may or may not be solved by just an automated 
solution. For there is a couple of examples that I would be 
happy to provide. But those are the kinds of things that trying 
to build into an automated solution may not cover some of those 
situational pieces that we may have.
    Mr. Flores. Okay. The third question on this is, you know, 
do you have any other ideas or solution to address this delay 
causing problem for original applications?
    Mr. Coy. Well sir, some of the issue of original 
applications, and I do not know if it is just a delay or a 
length of time to do it. As we all know, the Post-9/11 G.I. 
Bill, for example, has well over 5,000 business rules in the 
long term solution already. So when we get an original claim, 
finding out what the veteran is eligible for is a process in 
itself. And then if we, the intent of this bill is to ensure 
that the veteran makes the ``right'' decision. And sometimes, 
probably in the majority of cases, that right decision is right 
there staring you in the face. But in some situational 
environments it is not. So I would suggest that yes, automation 
is going to solve a good chunk of that. But I would also 
respectfully suggest that we automated our supplemental claim 
process, which is basically the original has been done and a 
veteran is now, just the supplemental claims process, is to pay 
them their housing and so on and so forth. We have been 
incredibly successful with that automation. And even that 
automation is yielding about 50 percent of all supplemental 
claims going through there untouched by human hands. We had 
originally thought it would be 25, 30, 35 percent of 
supplemental claims. So the success of 50 percent we are very 
encouraged with. But even then, it is 50 percent. So original 
claims is certainly a significant challenge. But we got the 
most bang for our bucks by automating the supplemental claims 
first.
    Mr. Flores. Let me try to get in a quick question on H.R. 
1842. We appreciate your careful review of it. Would it be 
possible for your staff to work with Committee staff to work 
out the technical issues so that we can get this bill perfected 
before the mark up later this month?
    Mr. Coy. Absolutely, Mr. Chairman. We would be absolutely 
delighted to do that.
    Mr. Flores. Okay. Thank you. I now recognize the Ranking 
Member for her questions.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman. My first 
question is for Mr. DiGiovanni. You know, as you mentioned 
there are military occupational specialties that have a 
civilian counterpart. And I am just wondering what the chances 
are that when a servicemember completes their military training 
in that specialty they could concurrently also have the 
civilian certification? Does that make sense to you? Is that 
possible? What would we have to do to make that happen?
    Mr. DiGiovanni. So one of the reasons why I have this task 
within the Department of Defense is because my portfolio 
encompasses that kind of basic training all the way until they 
get out. And so we are actually looking at exactly what you 
said, three lines of action. The first one would be once you 
complete initial military training, if you have the requisite 
experience or training at that time then we are encouraging 
people to either go for gap training or directly to a 
certification or license. The second line of action is once you 
have the requisite experience, so there are several 
certifications or licences that require four or five years of 
experience. So there is another opportunity mid-career as an 
individual completes the requisite experience. And then the 
last piece, which is in the Transition Assistance Program, 
where you are about a year out, again, another look to say you 
have got this particular skill set. Be it either something that 
translates directly to the private sector or if you are in the 
combat arms there are certifications, for example, for 
leadership abilities, team working, cognitive decision-making. 
So we are trying to make sure that we look at three lines of 
action across a servicemember's career in the military for 
opportunities for licensing credentials.
    Mrs. Kirkpatrick. Do you see any necessary policy changes 
from us to help push that along?
    Mr. DiGiovanni. I think there are policies within the 
existing authorities in the Department of Defense to put that 
into Department of Defense instructions and directives. So I 
think that we have the necessary authorities, I believe, to 
push that at this time.
    Mrs. Kirkpatrick. Thank you. Mr. Coy, my questions for you 
are about H.R. 1842. You said there are some ambiguities in 
foreclosure in the covered period. Could you elaborate a little 
bit on that for me?
    Mr. Coy. Yes, one of the examples in this is, is what the 
bill does not reconcile is what period of invalidity would be 
for foreclosure sales that took place during a covered period 
and so it may be that a foreclosure during a covered period may 
be invalid conceivably forever, and that might very well cloud 
someone's title down the road.
    And as a result of that, it's one of those things, for 
example, that we said that we would be happy to work with the 
Committee on those technical issues to ensure that that kind of 
thing--while we defer to our colleagues in DoD with respect to 
any SCRA-type things, our loan guarantee folks look at this 
from the standpoint of how it would affect us down the road or 
how it would affect veterans and that one technical issue is 
clouding, you know, any title issues that may be in the future.
    Mrs. Kirkpatrick. My follow-up question to that is, do you 
have any concerns that as we continue to legislate in this area 
that lenders will be less likely to want to cooperate and 
provide loans for our veterans? Do you see any of that 
happening now and do you have any concerns about us continuing 
to legislate in this area?
    Mr. Coy. No, ma'am, we have no evidence that lenders are 
not wanting to lend to veterans. I would suggest the exact 
opposite is occurring. Those people that have VA secured home 
loans have the lowest foreclosure rate for the last, I believe, 
fifteen quarters. And so a lender looks at a VA foreclosure 
rate and says this group of individuals are very serious about 
their mortgage and so I would suggest that it very well might 
be the opposite.
    Mrs. Kirkpatrick. Thank you. That is good news and I yield 
back.
    Thank you, Mr. Chairman.
    Mr. Flores. Thank you, Ms. Kirkpatrick.
    Mr. Runyan, you are recognized for five minutes for your 
questions.
    Mr. Runyan. Thank you, Mr. Chairman.
    And I truly only have one question for Mr. DiGiovanni. Kind 
of what the Ranking Member was walking you down, can you give 
us an update on the Department's efforts to complete the 
licensing and certification pilot for truck drivers and health 
care workers that was required by the 2012 NDAA?
    Mr. DiGiovanni. Sir, we are in the process of collecting 
data on that report. We are required by Section 558 to submit a 
report to the appropriate defense committees one year after 
commencement of the study which was on September 28th, 2012. So 
there's a report due on the Hill to give you an update on our 
progress this September.
    Right now we have almost 3,000 servicemembers enrolled in 
pilot programs in five standardized occupational categories of 
health profession, automotive mechanic, aircraft mechanic, 
logistics, and transportation, of which the last one you 
mentioned about, the commercial driver's license.
    We have also seen legislation in over 44 states which now, 
for example, allow military members with truck driving 
experience to get the military skills--the road test part of 
the commercial driver's license waived if they can show proof 
from their commander that they actually have experience in the 
vehicle they are seeking a license in. So, there has actually 
been some great progress there and I look forward to providing 
that report to you all in September.
    Mr. Runyan. Sir, just so clarify, that report is going to 
be on time as far as you know?
    Mr. DiGiovanni. Yes, absolutely. It will be on time. There 
is a huge new emphasis in the Department to make sure that we 
provide the Members of Congress reports in a timely manner, if 
not early.
    Mr. Runyan. Thank you very much.
    With that, I yield back, Mr. Chairman.
    Mr. Flores. Thank you, Mr. Runyan. Mr. Cook?
    Mr. Cook. I have no questions.
    Mr. Flores. No questions from Mr. Cook.
    Mr. Wenstrup?
    Mr. Wenstrup. I have no questions.
    Mr. Flores. No questions.
    If the rest of the panel doesn't mind, I would like to do a 
second quick round of questions on this and so I'll begin with 
that.
    Mr. Coy, in the VA's written statement opposing H.R. 2327, 
you mention that you believe there could be coordination issues 
if this administration was created. I would think that having 
an under secretary advocate for economic opportunity would have 
just the opposite effect and would facilitate solutions to 
cross-benefit issues and provide a higher level of coordination 
and resources to this important part of our veterans benefits. 
Can you elaborate on that?
    Well, let me rephrase that. Can you explain what you mean 
by coordination issues?
    Mr. Coy. I would suggest there is--perhaps might best 
answered by a couple of examples. One example would be is, most 
recently, we evaluated the effects that I mentioned earlier 
about the long-term solution for supplemental claims and our 
education claims. And as such, we took the effort to solicit 
from about, from claims, education claims examiners in Atlanta 
and asked them would they like to be disability claims 
examiners. Two or three things, it gave them an opportunity for 
a higher career path, so a number of people would want to take 
advantage of it from that standpoint, but as well, they were 
seasoned claims, VA claims folks, and so making the leap to a 
disability claims examiner after training was not as difficult 
as bringing somebody in off the street. So within a number of 
months, we will be able to leverage those hundred education 
claims folks into disability claims folks.
    I would also suggest that the Under Secretary Hickey has 
laid out a number of plans as we go forward, and when the 
disability claims backlog is resolved, those number of 
employees that now may be free to be able to go back to working 
educational claims or be VRE--or the numbers--or the FTEs could 
be VRE counselors. So there is a number of synergies that are 
across the board.
    As we looked at--did we think that creating a fourth 
administration as we stand back and look at the management 
layers that would be required as well of standing up an 
entirely new administration might be prohibitive in any of 
those folks that we would be standing up from a management 
perspective could very well be used to handle our claims 
process or VRE or any of the other economic opportunities.
    I would suggest further that what VBA did back in May of 
2011 by creating the deputy under secretary for economic 
opportunity position to focus on those economic opportunity 
programs has been, I would hope, somewhat successful from a 
pejorative standpoint. And we have done a lot of focusing on 
those programs to ensure that those programs in economic 
opportunity are given the attention, the leadership that we 
think they so deserve.
    Mr. Flores. Thank you for that response. What I am looking 
for is a flatter, leaner, more mission-focused organization 
with divisions that are focused. I don't think there is 
anything to prevent some, a VA employee, from moving from one 
of those divisions to another hopefully without too much 
friction. I think I've got time to get one more question in, 
and that is, what would the impact be on the, because of the 
potential enactment of H.R. 331, which is the consolidated 
certification bill, what would the impact be on education 
claims processing?
    Mr. Coy. We think, sir, it would be a positive impact 
because currently right now the legislation says the schools 
should or needs to certify. Being able to consolidate some of 
those claims, we believe would be beneficial. In fact, we had 
put in a legislative proposal to do just this and so we are 
very happy and encouraged that the Committee has taken the 
stance that we should go forward with this.
    Mr. Flores. Okay. Thank you, Mr. Coy.
    Did any other Members have any follow-up questions for 
this?
    Ms. Kirkpatrick?
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    Mr. Coy, my questions are about 1796. You say that the VA 
is already doing outreach, and so I have three questions about 
that. What kind of outreach is being done on what programs and 
what metrics do you have in place to measure whether or not 
that outreach is accomplishing your goals and is sufficient?
    Mr. Coy. Thank you for your question.
    First, I would agree that outreach is critically important 
and we can always do better at it. We are not suggesting in any 
way, shape or form that we are doing all that there could be 
done with outreach. Some of the outreach things that I would 
suggest that we are doing now is, we have a very, what we 
believe to be a very robust GI Bill Web site and we are putting 
lots of information out from there.
    On there we have eight frequently asked questions, for 
example, that talk very specifically about those kinds of 
things. As well, we are very active in conferences, whether 
they be from the State Approving Agencies, conferences or all 
of the other conferences, we are there and we are talking to 
them across the board. Then certainly perhaps the last, but not 
least, is the Transition Assistance Program in building those--
that information into the Transition Assistance Program is 
another aspect of the outreach.
    So we are not suggesting that we are doing all there is to 
do in outreach, but the bill talks about doing outreach in 
compliance and what we suggested is that we are, in fact, doing 
that and not sure that the legislation would mandate that we do 
more.
    Mrs. Kirkpatrick. And on what programs, are you doing 
outreach on all VA programs or can you just be a little more 
specific about that?
    Mr. Coy. What we are doing, most of the outreach on that I 
am talking about is in education, employment and some of those 
things, for example, that are in the world of economic 
opportunity. But the outreach that I specifically talk about 
with respect to the GI Bill Web site is on educational 
programs.
    Mrs. Kirkpatrick. And do you keep track of how many hits 
you have on that Web site so you know how many veterans you're 
actually reaching?
    Mr. Coy. Yes, ma'am, we do track how many hits we have on 
the Web site, but I do not have that information in my notebook 
here. I would be happy to get you that information.
    Mrs. Kirkpatrick. Okay. I would appreciate that.
    Mr. Chairman, thank you for those additional questions, and 
I yield back.
    Mr. Flores. Thank you, Ms. Kirkpatrick. Any other Members 
have any other questions?
    Mr. Runyan?
    Mr. Cook?
    Mr. Wenstrup?
    I want to thank the second, before I close, I want to thank 
Mr. Coy for the new tips emails that you're sending out for EO 
programs. I think that is the type of outreach we need. We 
appreciate you being proactive in doing that. So I would like 
to thank the second panel for your testimony and you're now 
excused, and we will ask the third panel to come to the witness 
table.
    With us today for the third panel are Mr. Gallucci with the 
Veterans of Foreign Wars of the United States; Mr. Jeffrey 
Steele from the American Legion; and Major General Andrew Davis 
from the Reserve Officers Association, and we also have written 
testimony from Mr. Rick Weidman of the Vietnam Veterans of 
America, which will be entered into the record. I want to 
welcome each of you to this hearing.
    And we will start with Mr. Gallucci, you are now recognized 
for five minutes.

   STATEMENTS OF RYAN M. GALLUCCI, DEPUTY DIRECTOR, NATIONAL 
  LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED 
     STATES; JEFFREY STEELE, ASSISTANT DIRECTOR, NATIONAL 
  LEGISLATIVE COMMISSION, THE AMERICAN LEGION; MAJOR GENERAL 
 ANDREW ``DREW'' DAVIS, USMC (RET.), EXECUTIVE DIRECTOR OF THE 
                  RESERVE OFFICERS ASSOCIATION

                 STATEMENT OF RYAN M. GALLUCCI

    Mr. Gallucci. Thank you, Chairman Flores.
    Chairman Flores, Ranking Member Kirkpatrick and Members of 
the Subcommittee, on behalf of the men and women of the VFW, 
the Nation's largest and oldest organization of combat 
veterans, I want to thank you for the opportunity to present 
the VFW's thoughts on today's pending legislation.
    The VFW generally supports each bill up for discussion 
today and I refer you to my prepared remarks for our in-depth 
thoughts on each piece of legislation. For the balance of my 
time, I will focus on three specific bills, H.R. 1357, which 
seeks to improve the Veterans Retraining Assistance Program; 
H.R. 1796, the Troop Talent Act; and H.R. 1842 the Military 
Family Home Protection Act.
    First, on H.R. 1357, the VFW has heard from many veterans 
that the Veterans Retraining Assistance Program or VRAP has 
already helped them secure the skills necessary to succeed in 
the competitive job market. Unfortunately, the latest 
statistics from VA still demonstrate that the benefit remains 
drastically underutilized even by veterans who are already 
approved to participate.
    The VFW believes that this unique benefit, which is 
designed to serve the largest population of unemployed 
veterans, has the potential to change the lives of many more if 
we slightly modify some of its stringent requirements allowing 
veterans the flexibility to complete approved programs.
    The VFW raised concerns before this Subcommittee in April 
that the requirement for all participants in VRAP to attend as 
full-time students prevented some from receiving necessary 
remediation to finish their programs; furthermore, many 
veterans who qualify for VRAP may also need to balance other 
life obligations in order to pay their bills and complete the 
approved academic program. With these two issues in mind, the 
VFW is proud to support Representative Johnson's efforts to 
allow certain VRAP's participants to utilize their benefits for 
programs technically designated as less than full-time.
    Next on H.R. 1796, the VFW has consistently advocated to 
improve the transferability of military training and experience 
for veterans seeking civilian professional licenses and 
credentials. While the Department of Defense, private industry 
and State governments have made significant efforts in the last 
few years to improve the translation of military skills for 
these purposes, the VFW believes that we can do more, which is 
why we are proud to support Representative Duckworth's Troop 
Talent Act and its companion bill in the Senate.
    In a recent town hall meeting with veterans advocates, 
Congresswoman Duckworth discussed how her personal military 
experience as an officer afforded her countless professional 
development opportunities while on active duty. Unfortunately, 
her enlisted counterparts were not afforded similar 
opportunities to acquire skills that would prove useful in 
post-military life.
    Through the Troop Talent Act, more military personnel will 
have access to civilian credentialing opportunities while on 
active duty. Servicemembers will also be allowed to use 
educational assistance benefits to pursue civilian licenses and 
credentials and the military's pilot program on civilian 
credentialing will expand to include information technology.
    The bill also requires each service secretary to make 
specific information on military training available to civilian 
credentialing bodies and reconstitutes VA's advisory committee 
on professional licensure and certification to ensure that 
licenses and credentials eligible for programmatic 
participation remain relevant to civilian careers.
    The VFW believes that unemployment in the veterans 
community cannot be solved through post-military intervention 
alone and that the military must better prepare its trained 
professionals to succeed after service. This bill helps to 
facilitate a servicemember's smooth transition into a quality 
career after the military and we encourage the Committee to 
move quickly on it.
    Finally, on H.R. 1842, over the last few years, the VFW has 
heard horror stories about banks foreclosing on military 
homeowners while either their loved ones are overseas or 
recovering from life-altering injuries. While the 
Servicemember's Civil Relief Act or SCRA offers some protection 
to vulnerable military families, the VFW believes that some 
financial institutions assert the law or even hold military 
families, military status against certain families when 
extending credit or other financial services. The VFW believes 
that these practices must stop and we are proud to support 
Representative Cummings' continued efforts to make this 
possible.
    This bill seeks to end predatory foreclosures on military 
families by extending SCRA protection for families whose loved 
ones are not only deployed, but also permanent and total 
disabled, who lost their lives in the line of, or who lost 
their lives in the line of duty, regardless of when the 
mortgage was commissioned. This bill also strengthens criminal 
penalties against institutions that knowingly violate SCRA and 
creates penalties for withholding or denying financial services 
for those who claim SCRA protection. Never again should a 
military family worry that the bank will seize their home while 
their loved one is serving overseas or after their loved one 
has made the ultimate sacrifice.
    Military homeowners face unique circumstances and deserve 
these kind of reasonable accommodations. A similar version of 
this bill almost passed last year as Representative Cummings 
outlines in his statement as an amendment to the National 
Defense Authorization Act. We hope this Committee will once 
again move this legislation quickly, affording critical 
financial protections to our military families at times of 
extreme vulnerability.
    Chairman Flores, Ranking Member Kirkpatrick, this concludes 
my statement and I am happy to answer any questions any Members 
of the Committee may have.

    [The prepared statement of Ryan M. Gallucci appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Gallucci.
    Mr. Steele, you are recognized for five minutes.

                  STATEMENT OF JEFFREY STEELE

    Mr. Steele. Chairman Flores, Ranking Member Kirkpatrick and 
distinguished Members of the Subcommittee, on behalf of 
Commander Koutz and the 2.4 million members of the American 
Legion, I thank you and your colleagues for the work you do in 
support of our servicemembers and veterans, as well as their 
families.
    As you know, veterans of the Iraq and Afghanistan 
campaigns, as well as those from previous eras, are met with 
daunting challenges at home. Unemployment for our newest 
veterans is still outpacing the national average. Older 
veterans face a changing job landscape where hard work was once 
rewarded, but now advanced skill sets are valued.
    New veterans need help to take the skills they learned in 
the service into the workforce. We are pleased to see that the 
pending legislation before us today addresses some of these 
challenges in productive ways. We have addressed each of the 
pending bills in our written statement here, I will highlight 
just two, which we strongly support.
    H.R. 1796, Troop Talent Act of 2013 sponsored by 
Representative Tammy Duckworth is a veterans employment measure 
to design to ease servicemembers transitions to civilian 
employment. This bill would bolster efforts to streamline the 
process of obtaining certifications and occupational licenses 
and help veterans put to use skills learned in the military.
    The American Legion has been urging Federal and State 
lawmakers as well as industry leaders to streamline the 
military-to-civilian licensing and certification process for a 
decade and a half now. Enactment of legislation consistent with 
this effort like the Troop Talent Act will benefit not only the 
servicemember, but those who eventually employ him or her in 
the civilian workforce.
    By encouraging the Department of Defense to provide more 
information about military training and curriculum to 
organizations involved with private sector credentialing 
process, this legislation would help them better account for 
military training in the awarding of such credentials. Civilian 
credentialing can contribute to servicemember and veteran 
personal and professional career development, if done right; 
however, the VA may lack subject matter experts that can 
provide recommendations to improve VA's licensing and 
certification database or improve the quality of the State 
Approving Agency approval process or develop and update 
material on the licensing and certification for use in the 
training of State Approving Agency staff; therefore, it is 
extremely important that the Professional Certification and 
Licensure Advisory Committee or PCLAC be reauthorized, another 
important provision in this bill. It will bring those subject 
matter experts to assist VA where they may lack expertise.
    As you know, the last few years have seen a major cultural 
shift for the military with top defense officials supporting 
servicemember credentialing, as well as expanded support for 
veteran credentialing on Capitol Hill with the passage of 
legislation which the Legion has either helped draft or which 
we have supported. As such, we believe there is a definite need 
to resume this independent body which can present new solutions 
to VA senior leadership and congressional members, as well as 
other stakeholders.
    It should also be noted that key provisions of the Troop 
Talent Act have been included in the House version of the 
fiscal year 2014 National Defense Authorization Act; however, 
reauthorization of the Professional Certification and Licensure 
Advisory Committee was not among those provisions because it 
was outside of the jurisdiction of the Armed Services 
Committee. I acknowledge Deputy Under Secretary Coy's concerns 
about the Committee, but believe that those could be addressed 
working with this Committee and Mr. Coy.
    Next, H.R. 2011 provides for a two-year extension of the 
Veterans' Advisory Committee on Education. This advisory 
committee is composed of members who are prominent leaders in 
the veterans education and training area. The American Legion 
has long-served as a member and can attest from organizational 
experience to the value of this advisory committee. We believe 
there is a definite need to maintain this and an independent 
body that is able to analyze and develop intelligent practical 
solutions to difficult educational issues and to present those 
solutions to VA's senior leadership and congressional members, 
as well as other stakeholders.
    Salient issues this advisory committee can address include 
the need to help evaluate the implementation of the Improving 
Transparency of Educational Opportunities for Veterans Act of 
2012 which requires schools to provide academic performance 
stated to the VA, as well as President Obama's Executive Order 
No. 13607 establishing guidelines for institutions catering to 
servicemembers, veterans or qualified family members. Also ripe 
for attention is the larger question of qualitative and 
quantitative metrics for assessing student outcomes.
    In conclusion, I appreciate the opportunity to present the 
American Legion's views and look forward to any questions you 
may have.

    [The prepared statement of Jeffrey Steele appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Steele.
    Major General Davis, you are recognized for five minutes.

               STATEMENT OF ANDREW ``DREW'' DAVIS

    Mr. Davis. Chairman Flores, Ranking Member Kirkpatrick and 
Members of the Subcommittee, the Reserve Officers Association 
thanks you for the invitation to appear and give testimony. I 
am also authorized to speak on behalf of the Reserve Enlisted 
Association.
    Although contingency operations in Afghanistan are winding 
down, there are still 54,000 reservists and guardsmen on 
mobilizations and deployments, and more than 875,000 
outstanding citizen warriors have sacrificed much in order to 
serve during the last 12 years. The associations that typically 
testify before this Committee are the Veterans Service 
Organizations, so often the unique needs of the Reserve 
component have been overlooked without ROA's testimony.
    Reservists and guardsmen are unique because they are 
discharged from active duty but remain on military service. 
Their numbers are reported to the VA by the Department of 
Defense, but the Reserve component members' service obligation 
remains and they can be recalled to additional active duty. 
Often they are not given discharge or separation papers that 
are required for certain veterans benefits, and most do not 
have access to the same transition education programs as 
veterans leaving active service.
    Due to stealth discrimination and employers' concerns about 
the mobilization of a peacetime operational reserve, 
unemployment for 18-to-24-year-old Reserve and Guard members is 
triple the unemployment rate for non-affiliated veterans. ROA 
and REA would like to thank the Committee for recognizing the 
role that military families play in supporting the missions of 
the uniformed services.
    H.R. 821 by Representative Grayson and H.R. 1842 by 
Representative Cummings are bills that make improvements to the 
Servicemembers Civil Relief Act. Protection of a serving 
member's home and finance are key protections needed when 
deployed or back in the States.
    H.R. 331 by Representative Calvert and H.R. 1357 by 
Representative Johnson are bills that improve the tracking of 
students under the various veteran education benefits.
    Returning veterans are often non-traditional students. A 
four-year college program isn't necessarily the path for all 
veterans. Before graduation, the non-traditional student may 
leave and be readmitted to a school several times affected by 
priorities from current employment and family. Attrition 
numbers can appear higher if an individual is not tracked 
through his or her full progress.
    H.R. 2011 by Representative Delaney would include chapter 
31 of title 38 under the purview of the Veterans' Advisory 
Committee on Education. ROA and REA concur, with this, 
vocational rehabilitation plays an important part of 
transitioning service-connected disabled veterans back to 
civilian life. ROA and REA hope that H.R. 2011 can be amended 
to include chapter 1607 education as well.
    Chapter 1606, the Montgomery GI Bill for selective 
reservists is included under the Veterans' Advisory Committee, 
but 1607, which improves their education benefits while they 
are mobilized is not under the committee's purview and it 
should be.
    The associations support H.R. 2210 by Representative Young 
of Florida that would expand the Fry Scholarship to children of 
those who are awarded the Purple Heart that die within 60 days 
of the date of discharge or released from active duty. These 
heroes should not be excluded; however, with H.R. 2210, as with 
earlier bills, ROA and REA are concerned with the definition of 
active duty. Reserve and guardmembers serve under many 
different types of activation orders. They have been sent into 
combat areas or on missions of shorter duration on other than 
active duty orders and these other types of orders need to be 
covered.
    H.R. 1796 by Representative Duckworth directs the military 
secretaries to expand communications with serving members on 
civilian credentialing opportunities. This legislation 
continues the progress being made at getting military work 
skills translated and recognized in the civilian work area.
    ROA and REA support Representative Cook's H.R. 2150 to 
extend the Homeless Veterans' Reintegration Program by five 
years.
    And we support Chairman Miller's H.R. 2327 to support a 
Veterans Economic Opportunity Administration within the 
Department of Veterans Affairs. We find that it is enforcement 
that is the challenge for both labor and Justice Department for 
USERRA.
    Once again, I would like to thank the Subcommittee for the 
opportunity to testify today and would welcome any questions. 
Thank you.

    [The prepared statement of Andrew Davis appears in the 
Appendix]

    Mr. Flores. Thank you, General Davis, and I thank all of 
the panel for their testimony.
    I have a couple of questions for you. The first one has to 
do--you know, we've got two committees, the Advisory Committee 
for Education, the Advisory Committee on Licensure and 
Credentialing. Do you think there are any potential gains in 
efficiency that could be made if you combine these two advisory 
committees with the end goal--since the end goal of education 
in many cases is licensure or the receipt of some sort of a 
credential--what do you guys think about this?
    Mr. Steele?
    Mr. Steele. It would certainly make sense to have a certain 
overlap if they are not combined, to have a certain overlap of 
committee memberships so that there would be cognizance by both 
committees of the work being done by the committees. Whether 
they would be combined or not, that would be a question we 
would have to reflect on and get back to you on.
    Mr. Flores. Okay. Mr. Gallucci, any initial comments?
    Mr. Gallucci. Thanks, Chairman Flores.
    Just thinking about how complicated the landscape of higher 
education has been over the last couple of years, that is one 
of the reasons that we would prefer to see the education 
committee reauthorized. We've seen a lot of different arguments 
about whether the post-9/11 GI Bill is going to the kinds of 
programs that we intended it to go to. We have seen impropriety 
in different sectors of higher-ed to include not-profit publics 
who are now under the microscope for the way that they send in-
state tuition to certain student veterans. We feel that higher 
education is such a complex landscape that it demands specific 
attention and licensing and credentialing goes far beyond just 
the purview of the GI Bill approved programs, but also involves 
how military professionals are credentialed while they are on 
active duty.
    Mr. Flores. General Davis, any thoughts?
    Mr. Davis. Let me just add to that, that on the licensing 
and credentialing, there are some occupational fields that are 
obvious and others, I think, that was just touched on by your 
questions, like combat arms, that are not so easy. And, quite 
frankly, that has been a challenge for both the Department of 
Defense and its databases to make that translation.
    If you look at the Hero2Hired Web site and type in infantry 
officer, things pop up like security consultant or security 
guard which have nothing to do with the experience of the 
veteran.
    Mr. Flores. Okay. Thank you.
    Mr. Steele, the American Legion is not taking a position on 
Chairman Miller's bill to create the Veterans Economic 
Opportunity Administration. Does the Legion have a resolution 
on the initiative that would actually increase oversight of 
economic opportunity initiatives?
    Mr. Steele. We do not have a resolution that speaks to that 
legislation, so we took no position.
    Mr. Flores. Okay. I see.
    The next question is for Mr. Gallucci, can you tell me why 
your read of our bill, of my bill, H.R. 2481, could allow a 
veteran to accidentally revoke the wrong education benefit, 
when actually the intent of the legislation is to prevent that 
mistake? I mean I've actually watched the claims processors go 
through that part of an original claim as they are setting it 
up and I can see the--if I put myself in the veteran's shoes, I 
can see how they could make that mistake.
    Mr. Gallucci. Absolutely. I want to explain a little bit 
about where our justification came for--we definitely support 
the intent of the bill, but to echo a little bit about what Mr. 
Coy had said earlier, we do have some concerns about the 
practical application of it and we would be happy to sit down 
with your staff afterwards and discuss the specifics of the 
bill and how it's written out.
    Just reading the complexity of the language, we would be 
concerned that if VA made a decision for a veteran to revoke a 
certain benefit, that if the veteran really did want to use 
that benefit, that they would still have that option.
    Mr. Flores. Well, actually, the bill is designed that way 
so that the VA will make a provisional determination and then 
the veteran can always revoke that, so we've tried to build 
that in with the bill.
    For all of you, we have about a minute left, you know, 
about three years ago there was a significant concern about the 
large number of foreclosures that were in violation of the 
Servicemember's Civil Relief Act and my question for you is 
this, and I think some of you touched on it in your testimony, 
the question is pretty simple: Do you think the financial 
services industry has cleaned up its act? Are you actually 
continuing to hear about foreclosures under the SCRA?
    Mr. Davis. Our early empirical evidence--we have a 
servicemembers loss center that is fielding more than a 
thousand calls a month from reservists in some sort of distress 
or with questions. About half of those are USERRA or 
employment-related. About half of the remaining half are 
financial institution related.
    Foreclosure is not one of the issues that we are hearing. 
We are hearing more of the issues of credit card and other 
lending abuse; it's not foreclosures.
    Mr. Flores. Mr. Steele or Mr. Gallucci, can you give me a 
yes/no answer?
    Mr. Steele. Chairman Flores, if you don't mind, I would 
like to take that question for the record. We've been speaking 
recently with the Department of Justice's veterans fraud 
initiative and some of the ways that the Federal government is 
tracking complaints by veterans specifically related to banking 
and credit issues. I don't have their information, their latest 
information in front of me, but I think we can come up with a 
better answer for you, but we do think this is a major problem 
that is on-going for the veterans community.
    Mr. Flores. Okay. Thank you.
    Now, I recognize the Ranking Member for five minutes.
    Ms. Kirkpatrick. Thank you.
    Mr. Gallucci, at the beginning of your testimony, you said 
that the VRAP program is underutilized. I would like to know 
the top three reasons in your opinion for that and then what 
solutions could be put in place to address that problem.
    Mr. Gallucci. Absolutely. Thanks for the question.
    What we've seen as the top hurdles are access to approved 
programs, the difference between part-time/full-time approval, 
but then also the financial concerns for a veteran, which 
really isn't related to what this Committee would have 
jurisdiction over, but let me talk to the first two, 
specifically.
    What I mentioned in my testimony was the access to 
remediation. The example that I used back in the hearing in 
April came from the Community College of Rhode Island Student 
Veterans Organization and what they had explained to the VFW 
was that a veteran may enter an approved program that doesn't 
necessarily correspond with the academic calendar, the 
traditional academic calendar at that community college.
    So what happens is, before that veteran can enter the 
program, they may have failed the basic math or basic typing 
class, so they would need significant remediation before they 
could successfully complete it. But what happens during the 
enrollment phase is that remediation doesn't necessarily 
correlate with the approved program, so at some point they are 
going to drop below full-time and they've run into a number of 
hurdles at that school, specifically, but we have also heard of 
other examples where remediation has been a problem.
    Next would be approval of certain institutions and we 
outlined this as well in April, just touched on it briefly, was 
that a two-year--it's specifically relegated to two-year 
institutions, so community colleges, technical schools, but 
there are four-year colleges that serve as de facto community 
colleges in their communities. I believe the example used was 
Penn State in Erie, Pennsylvania.
    So our concern is that there are good two-year programs, 
certificate programs, at four-year institutions where VRAP 
eligible veterans could be going, but they can't get in because 
of how the program is drafted up.
    Mrs. Kirkpatrick. And you would think that that requires a 
legislative solution to address those problems?
    Mr. Gallucci. We do just because of how the VOW to Hire 
Heroes Act was written, it specifically outlines that it's only 
for two-year programs.
    Mrs. Kirkpatrick. And with regards to proportionality, if 
that is retained, I mean that is half-time student/half-time 
paid, do you think that could actually harm veterans, rather 
than helping them?
    Mr. Gallucci. That is a good question and that is a bit of 
concern and we wouldn't want it--we wouldn't want to see a VRAP 
eligible veteran only taking one class at a time since you only 
have 12 months of eligibility for your benefit. But we feel 
that there would be a happy medium based on the length of your 
program.
    Say it was a nine-month certificate program, you have 
twelve months of benefit--if you can--if it goes to just below 
what would be considered full-time for that institution, we 
wouldn't necessarily see a program. But we do understand the 
concern that a veteran wouldn't be on a reasonable schedule to 
complete a program if they were only taking one or two classes 
at a time.
    Mrs. Kirkpatrick. And then my last question is for the 
entire panel, regarding the military occupational specialties 
and getting concurrent certification for civilian programs, 
what problems do you see, if any, in instituting that kind of 
policy?
    Let me refine that a little bit. I guess, who should be in 
charge of that certification, should it be done at the state 
level? If you do that, are you going to run into problems in 
fifty states having different certification requirements? How 
do we address that at a national level?
    Mr. Steele. Well, unfortunately, because of the nature of 
the credentialing system and the Federal nature of our system, 
it's going to have to have a fifty-state--it's going to impact 
fifty states, so--but the Department of Defense has done a 
wonderful job of getting on board with this effort. They, from 
what I understand, are attempting to make every effort to work 
with us on this and work with you on this. I don't see why it 
can't be done. We look forward to the report in September.
    Mrs. Kirkpatrick. Okay. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Flores. Thank you, Ms. Kirkpatrick.
    Mr. Cook, do you have any questions?
    Mr. Cook. Yes, sir. I had one--and I want to apologize, I 
was in another Committee for the beginning of this and maybe I 
missed part of this, because it was in regards to your comment 
in one of the earlier bills about the gentleman was making 
about the Purple Heart--and exactly how being a reservist that, 
if I understood it correctly, I was somewhat shocked and maybe 
I didn't read it right because it wasn't on my--could you go 
into----
    Mr. Davis. This is not a reserve-specific bill. The bill, 
which is H.R. 2210, talks about the extension of Fry amendment 
scholarships to Purple Heart recipients who die subsequent to 
the end of their military service, and this would extend their 
benefit for a period of time and we think that is a good idea.
    Mr. Cook. Okay. I was a little bit confused because I was 
starting to wonder, wait a minute, it doesn't make a difference 
if you get a Purple Heart whether you're a reserve or a 
regular, it's just combat-enemy action and it wouldn't--but 
thank you for clarifying that. I appreciate that.
    That is all I had.
    Mr. Flores. Thank you, Mr. Cook.
    Ms. Kirkpatrick has another question.
    Mrs. Kirkpatrick. Mr. Gallucci, I would like to hear your 
response to my last question about the military occupational 
specialty and the civilian certification and meshing that 
together as a fifty-state level.
    Mr. Gallucci. Absolutely. This is why we feel the DoD pilot 
is so important and also allowing servicemembers to access 
credentialing opportunities while they are still on active 
duty, as my colleague from the American Legion said, it is 
going--because of how complicated licensure and credentialing 
is and because the states have the right and duty to license 
professionals as they see fit within their borders, it's going 
to be a multitiered solution.
    What we can do on the Federal level is make sure that 
servicemembers, while they are on active duty, have access to 
civilian credentialing opportunities that will help smooth that 
transition, so once they decide to leave the military, that 
there won't be a gap between their end of time in service and 
the time that it takes to start a career.
    Mrs. Kirkpatrick. Thank you very much and I thank the panel 
and I yield back.
    Mr. Flores. If there are no further questions, the 
witnesses are excused with our thanks. We appreciate your 
participation and your insight that you've given us today.
    I would like to announce that the Economic Opportunity 
Subcommittee is tentatively scheduled to hold a markup on some 
or all of the bills that we talked about today, that we heard 
testimony on today on July the 18th.
    Finally, I ask unanimous consent that all Members have five 
legislative days in which to revise and extend their remarks on 
any of the bills under consideration today.
    Hearing no objections, so ordered.
    This hearing is adjourned.

    [Whereupon, at 3:47 p.m. the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bill Flores
    Good afternoon. We have a full plate of bills and witnesses so I 
will limit my opening remarks to a comment on VA's testimony on my 
bill, H.R. 2481.
    I introduced H.R. 2481 in response to suggestions from the Atlanta 
Regional Procession Office staff who noted that mistakes on the 
application for Post-9/11 GI Bill benefits cause significant delays in 
processing original claims.
    Apparently, some veterans are revoking programs for which they have 
no entitlement or choosing older programs and giving up the Post-9/11 
benefit. My bill would have VA review an application and if it is 
obvious the veteran made what appears to be a bad choice, choose the 
best program and contact the veteran and offer the veteran the 
opportunity to reject VA's recommendation. This process would not stop 
their application from moving forward and could reduce processing time 
for original claims.
    VA has already provided us with technical assistance on the bill 
and I am grateful that they have offered additional help. Given that 
assistance and staff conversations, I am surprised that VA is not 
commenting on the bill today and I will have that discussion with them 
after their testimony.
    I now recognize the distinguished Ranking Member from our third-
largest state, Mr. Takano for his opening remarks.

                                 <F-dash>
                 Prepared Statement of Hon. Ken Calvert
    Chairman Flores, Ranking Member Takano and distinguished members of 
the subcommittee - thank you for inviting me here to testify today on 
HR 331, a bill that would streamline VA processes to the benefit of our 
veterans.
    The issue is fairly specific to community college districts that 
have multiple colleges as part of the district. Currently, the 
department of Veterans Affairs (VA) requires Community Colleges to 
certify that their veteran students are enrolled for a specific number 
of classes before the VA will disperse student benefits.
    Ranking Member Takano's congressional district and my district 
include a community college district with three colleges. The community 
college district operates under uniform curriculum for all three 
colleges. Under current regulations, each of the three colleges must 
write letters to the other colleges within the District to verify their 
classes meet regulations. This unnecessary paperwork delays benefits to 
veterans and increases processing time and costs to college district as 
well as the VA.
    This process is unnecessary because:

    <bullet>  All the colleges' curriculum is approved at the District 
level and is aligned across colleges;
    <bullet>  The District registration system includes an option for a 
student to register at any one of the colleges in the same term;
    <bullet>  The District's computer system contains all student and 
course information on one record that can be accessed and viewed at any 
of the colleges;
    <bullet>  A student's official transcript includes courses taken at 
all of the three colleges.

    HR 331 would correct the problem by permitting each college in the 
District to certify veterans for all classes attended within the 
District rather than just for classes attended at that particular 
college. HR 331 would update the rules which would mean veterans would 
receive their benefits sooner and the VA would have less paperwork to 
process.
    HR 331 provides an important and necessary legislative fix to a 
problem that is impacting veterans in my and Congressman Takano's 
congressional districts and could be impacting thousands of veterans 
across the country. I would like to personally thank Chairman Flores' 
staff for their work and advice in drafting this bill and I welcome any 
questions the subcommittee may have at this time.
    Thank you.

                                 <F-dash>
                Prepared Statement of Hon. John Delaney
Re: Testimony before the House Veterans Affairs Committee addressing HR 
        2011
    Chairman Flores and Ranking Member Takano, thank you for the 
opportunity to address the Subcommittee this afternoon. As I begin my 
remarks I would also like to thank my colleague Congressman Jim Renacci 
for his strong support of this bill and our veterans.
    I am proud to be here to discuss the Veterans Advisory Committee on 
Education Reauthorization Act of 2013. This important piece of 
legislation will help amplify the voices of our veterans on issues of 
job training and education and help improve existing benefit programs. 
By increasing collaboration and communication between the Department of 
Veterans Affairs and our veterans on issues of education and training, 
we can ensure that the brave men and women of our armed services are 
equipped to compete in the 21st century economy.
    The Veterans Advisory Committee on Education helps advise the 
Secretary of Veterans Affairs on how best to improve and coordinate our 
veterans education and job training programs. The Committee is composed 
of veterans and experts in the fields of education, labor, and 
management, and includes veterans' representatives from World War II, 
Korea, Vietnam, the Gulf War, and the post-911 conflicts. Versions of 
the committee have existed since 1972, and without Congressional 
action, the Committee will sunset at the end of this year.
    Since 1944, the VA has been providing critical veterans educational 
assistance benefits through the GI bills and associated programs, such 
as the Transition Assistance Program, the Reserves Educational 
Assistance Program, and the Veterans Retraining Assistance Program. 
These are critical programs, but clearly, no program is perfect, and 
therefore, we should make sure that the VA adapts to changing times and 
new trends.
    In past years, the Veterans Advisory Committee has provided 
invaluable aid to the VA's efforts in administering the education 
programs, including significant input on the post-9/11 GI Bill and the 
Principles of Excellence Program, which provides guidelines for 
educational institutions receiving federal funding. Of the 57 
recommendations submitted by the committee between FY2003 and FY2012 
over 40% have been or will be implemented.
    Still there is much work to be done. According to the Bureau of 
Labor Statistics, the unemployment rate for veterans who served after 
September 2001 is 10.2%, which of course, is much higher than the 
unemployment rate for nonveterans during the same time period. This is 
simply unacceptable. We must do more for our veterans who are returning 
from recent conflicts so that they can compete and thrive in the 21st 
century economy.
    By reauthorizing the Veterans Advisory Committee, we can provide a 
much needed post-9/11 perspective on matters of education with a 
renewed energy and focus, so that we can ensure our veterans' education 
programs are responsive, accountable, and effective.
    We have an obligation to stand with our veterans and help ease 
their transition to civilian life. This is not just a matter of 
economics; it is a matter of dignity. Veterans deserve the dignity of 
gainful employment that provides a standard of living befitting their 
service to our country. One simple way to do this is by ensuring that 
they receive the education and job training they need.
    I thank the Committee members for their time this afternoon. I look 
forward to collaborating with you on this bipartisan legislation that 
will provide for smarter government and better educational outcomes for 
our veterans.

                                 <F-dash>
                Prepared Statement of Hon. Alan Grayson
    Chairman Flores and Ranking Member Takano, thank you for calling 
this legislative hearing.
    I am here today to address H.R. 821, a bill ``To amend the 
Servicemembers Civil Relief Act to provide surviving spouses with 
certain protections relating to mortgages and mortgage foreclosures, 
and for other purposes.''
    In plain English, this bill would extend mortgage foreclosure 
protections to the surviving spouses of men and women who are killed 
while serving in the United States military.
    Under current law, members of the military are shielded from 
foreclosure while they are on active duty. This bill would extend those 
same protections to a surviving spouse of a servicemember who is killed 
while serving our nation.
    H.R. 821 is a reintroduction of last term's H.R. 1263 which Bob 
Filner, my good friend and the former Chairman of the Veterans Affairs 
Committee, introduced and passed through the House of Representatives 
by a voice vote during the last Congress. Unfortunately, the Senate 
never acted on the bill.
    The only difference between his bill and mine appears in Section 3. 
There is slight change, resulting in a shorter bill, that reflects 
intervening changes in law made by the ``Honoring America's Veterans 
and Caring for Camp Lejeune Families Act of 2012''. Previously, 
servicemembers were afforded foreclosure protections for nine months 
after they separated from service. They now have a full year, and this 
bill reflects that.
    Mr. Chairman and members of the subcommittee, Florida is a state 
that produces a high number of men and women who enlist in our armed 
forces. It is also a state whom a large number of veterans call 
``home''.
    Unfortunately, Florida has also lost 343 of its sons and daughters 
in Iraq and Afghanistan - second only to Texas.
    Given that statistic, and given the fact that I represent a 
district consistently ranked at, or near the top, in foreclosure 
activity nationwide, I felt compelled to reintroduce this bill.
    This committee held multiple hearings on the issue throughout last 
Congress, and there were consistent reports on the need for it.
    In January of 2011, a JPMorgan Chase official told NBC News that 
over 4,000 servicemembers had been illegally overcharged on their 
mortgage interest rates, and that many military families had been 
improperly foreclosed upon, in violation of the `Servicemembers Civil 
Relief Act' (SCRA).
    This revelation addressed only servicemembers who had SCRA 
protections, and only covered the actions of one bank. Surviving 
spouses are not afforded the same protection by SCRA, and we can only 
guess how many unfortunate husbands and wives lost their homes when 
they needed our protection the most.
    Later that year, more allegations surfaced of SCRA violations by 
JPMorgan Chase and other lending institutions.
    In response, this Committee held oversight hearings to review the 
allegations. It received testimony from Captain Jonathon Rowles (USMC) 
and Mrs. Julia Rowles, about their troubles with JPMorgan Chase.
    Mr. and Mrs. Rowles testified that when they called the toll-free 
number provided by their bank, employees were woefully uninformed about 
SCRA protections, and nobody seemed in charge of ensuring that the bank 
was compliant.
    In response to that testimony, and other revelations that came to 
light through the Committee's continuous oversight of SCRA abuses, H.R. 
821 requires lending institutions to employ and/or designate a SCRA 
compliance officer.
    Every bank must take SCRA seriously, and every bank must have at 
least one person responsible to ensure the institution's compliance.
    USA Today has reported that more than 20,000 military members and 
Reservists faced foreclosure in 2010 alone.
    That is a staggering number, and it is a serious problem. A 
servicemember's home is often his or her largest financial asset. It is 
an investment that should be protected.
    Servicemembers and veterans, as well as their families, should have 
an opportunity to avoid black marks on their credit history by working 
with lenders to minimize the chance of foreclosure.
    Some military families experience difficulties - often related to 
owning a home where the servicemember is stationed - in the transition 
from the military to the civilian world. These problems are only 
magnified in the tragic instance of a servicemember's death.
    According to the Washington Post, 6,668 servicemembers have died in 
service since U.S. forces began Operation Iraqi Freedom and Operation 
Enduring Freedom combat operations in 2001. This means that thousands 
of families have lost a spouse, a wage earner, and servicemember 
mortgage protections under SCRA.
    While a family grieves the loss of a servicemember, the resulting 
change in income is likely to force a surviving spouse to make 
difficult financial decisions - including whether or not he or she will 
keep or sell the home.
    A surviving family should be given sufficient time after the loss 
of a loved one to refinance, make arrangements with the lender to 
restructure their loan, or sell the house. Unfortunately, right now, 
they are not afforded the extra time they often need.
    Mr. Chairman, this is a serious problem, and it is one that can be 
solved. I thank you for the time today to appear before you, and I 
thank each of you for listening. I respectfully request your support of 
this bill.

                                 <F-dash>
                Prepared Statement of Hon. Bill Johnson
    Chairman Flores, Ranking Member Takano, and Members of the 
Subcommittee:
    I appreciate the opportunity to testify before you on H.R. 1357, 
legislation I introduced to amend the definition of ``full-time'' for 
technical training programs under the Veterans Retraining Assistance 
Program, or VRAP.
    As an Air Force veteran who served as a Subcommittee Chairman on 
the House Veterans' Affairs Committee last Congress, I was proud to 
support the VOW to Hire Heroes Act of 2011. This important legislation 
provided several provisions to assist unemployed veterans, including 
improvements to the Transition Assistance Program (TAP), veterans tax 
credits, requirements for translating military skills and training into 
commercial opportunities, and expanded educational and training 
benefits, including VRAP.
    The Veterans Retraining Assistance Program (VRAP) provides 
unemployed veterans aged 35 through 60, who are not eligible for other 
VA education benefit programs, up to 12 months of full-time training 
assistance. Over 53,000 veterans are enrolled in training programs 
through VRAP, and the Department of Veterans Affairs (VA) is still 
accepting applications from eligible veterans.
    An unintended shortfall of VRAP came to my attention last fall when 
unemployed veterans in Eastern and Southeastern Ohio, who were approved 
for VRAP, were unable to find eligible technical training programs for 
their chosen occupation. The reason being, that programs approved for 
VRAP must be full-time, which is defined as requiring 18-22 ``seat-
time'' hours. As these veterans discovered, the majority of technical 
training programs that are considered to be full-time outside of the 
VA's definition fall short of VRAP's seat-time requirement.
    For example, several veterans from Ohio's 6th District wished to 
use their approved VRAP benefits to do a welding program - an 
occupation on the rise in Eastern and Southeastern Ohio due to 
increased oil and gas development in the region. While there were 
welding programs available in the area, they did not meet the seat-time 
hour requirement. Some of these programs, such as the welding program 
at the Washington County Career Center, are even approved by the VA 
under regular GI Benefits, but as part-time programs. As programs under 
VRAP must be full-time, these veterans were approved for VRAP benefits, 
but unable to use them.
    H.R. 1357 is intended to fix this unintended obstacle and expand 
opportunities for unemployed veterans to complete technical training 
programs. Specifically, this legislation would amend the VRAP 
definition of full-time for technical training programs, to only 
require 16 seat-time hours, so long as these programs are also approved 
by the VA for other educational benefits.
    The purpose of VRAP is to give America's veterans access and the 
opportunity to enhance their skills, enabling them to better compete in 
today's job market. In my view, the difference of a few seat-time hours 
should not prevent a veteran from taking a training program that will 
enhance their ability to be hired - particularly if the veteran ends up 
with a comparable certificate or degree from other institutions that 
require slightly more seat-time hours.
    Chairman Flores, Ranking Member Takano, thank you again for the 
opportunity to speak on this important legislation, H.R. 1357. I am 
hopeful that this legislation will be favorably considered by the 
Veterans' Affairs Committee, so as to provide our nation's unemployed 
heroes with more opportunities to enhance their skills and find gainful 
employment.
Executive Summary
    The Veterans Retraining Assistance Program (VRAP) provides 
unemployed veterans aged 35 through 60, who are not eligible for other 
VA education benefit programs, up to 12 months of full-time training 
assistance. Over 53,000 veterans are enrolled in training programs 
through VRAP, and the Department of Veterans Affairs (VA) is still 
accepting applications from eligible veterans.
    For the purposes of VRAP, full-time programs are defined as 
including 18-22 seat-time hours. Unfortunately, veterans in Eastern and 
Southeastern Ohio discovered that the majority of available technical 
training programs fall short of VRAP's seat-time hour requirement. Some 
of these programs are even approved by the VA under regular GI 
Benefits, but are considered to be part-time programs. As veterans 
approved for VRAP do not qualify for other VA educational benefits, 
they are thus prevented from taking these technical training programs.
    H.R. 1357 is intended to fix this technicality and expand 
opportunities for unemployed veterans to complete technical training 
programs. Specifically, this legislation would amend the VRAP 
definition of full-time for technical training programs to only require 
16 seat-time hours, so long as these programs are also approved by the 
VA for other educational benefits.

                                 <F-dash>
                  Prepared Statement of Curtis L. Coy
    Good afternoon, Mr. Chairman, Ranking Member Takano, and other 
Members of the Subcommittee. Thank you for the opportunity to be here 
today to provide the Department of Veterans Affairs (VA) views on 
pending legislation affecting VA's programs, including the following: 
H.R. 331, H.R. 821, H.R. 1357, H.R. 1796 (sections 4(b) and 6), H.R. 
1842, H.R. 2011, H.R. 2210, and H.R. 2327. Other bills under discussion 
today would affect programs or laws administered by the Department of 
Labor (DOL) and the Department of Defense (DoD). Respectfully, VA 
defers to DOL's views on H.R. 2150, a bill to provide for a 5-year 
extension of the Homeless Veterans Reintegration Program. Accompanying 
me this morning is Mr. John Brizzi, Deputy Assistant General Counsel.
                                H.R. 331
    H.R. 331 would amend section 3684(a) of title 38, United States 
Code, to permit any public institution in a consortium (or district) to 
certify to VA the enrollment of any student enrolled in an institution 
in such consortium. Specifically, this section would allow any 
institution in a consortium (or district) to report enrollment 
information to VA for any student enrolled in an educational 
institution that is part of the consortium if all institutions of that 
entity are located in the same state and the consortium is organized in 
a manner that facilitates the centralized reporting of enrollments in 
any of such institutions. It would, further, require individuals and 
educational institutions participating in the Post-Vietnam Era and 
Post-9/11 Veterans' Educational Assistance Programs to report to VA 
enrollment and any interruption or termination of the education of such 
individuals (thereby making the enrollment reporting requirements for 
the Post-Vietnam Era and Post-9/11 Programs consistent with other 
Veterans' education programs).
    VA supports enactment of H.R. 331. This proposal would allow each 
institution in the consortium (or district) to certify the student's 
enrollment regardless of where the student is matriculated. 
Furthermore, since school certifying officials at each `District' 
institution have access to all of that District's student records, and 
all courses have universal numbering, VA compliance visits could occur 
at any institution.
    We estimate that enactment of this legislation would result in no 
additional mandatory or general operating expense costs to VA.
                                H.R. 821
    H.R. 821 would amend the Servicemembers Civil Relief Act (SCRA) to 
provide surviving spouses with certain protections relating to 
mortgages and mortgage foreclosures. While we respectfully defer to DoD 
regarding the merits of this legislation, we, nonetheless, have one 
technical concern.
    Section 1 of the bill would expand mortgage protections provided 
under section 303 of SCRA to include a surviving spouse of a 
Servicemember if such spouse is ``the'' successor in interest to a 
covered property. In addition to DoD's concerns, VA notes that the 
extension of SCRA protections to surviving spouses directly supports 
VA's mission of serving Veterans and their families. As the bill is 
currently drafted, however, it seems that the spouse would have to be 
the sole successor, rather than merely ``a'' successor in interest, 
which could have unintended consequences if a Servicemember dies 
intestate or chooses to leave some percentage of interest to another 
individual, such as a child, sibling, or parent. In that instance, a 
surviving spouse with only a partial interest in a property might be 
excluded from protection.
    Section 2 of the bill would require certain lending institutions to 
appoint SCRA compliance officers, and section 3 would extend certain 
SCRA protections provided by the Honoring America's Veterans and Caring 
for Camp Lejeune Families Act of 2012.
    Provisions of this bill may have an impact on VA loan subsidy 
costs. We will provide an estimate of cost for the record.
                               H.R. 1357
    H.R. 1357 would amend section 211(b) of the VOW to Hire Heroes Act 
of 2011 to permit retraining assistance under the Veterans Retraining 
Assistance Program (VRAP) to be used by a Veteran to pursue a program 
of education for training on a less-than-full-time basis if the program 
consists of at least 16 seat-time hours (or the equivalent). VA 
supports this proposal.
    This proposal would greatly enhance training opportunities for 
Veterans who are eligible under this program. The VOW to Hire Heroes 
Act of 2011 created VRAP to help retrain individuals hardest hit by 
unemployment - Veterans aged 35 to 60. Currently, only Veterans 
training on a full-time basis are eligible to receive payments under 
VRAP. As of June 12, 2013, VA approved 105,934 applicants; however, 
only 52,228 participants are enrolled in school. Legislation that 
authorizes Veterans to train on a less than full-time basis would allow 
for greater participation under VRAP. However, VA is unclear as to the 
meaning of ``16 seat-time hours.'' Programs are currently measured on 
either a credit-hour or clock-hour basis. Courses measured on a credit-
hour basis generally require 12 or 14 credit hours (or the equivalent) 
for full-time training, while those measured on a clock-hour basis 
require 18 or 22 hours for full-time training. If the intent is to 
allow for the payment of VRAP benefits to Veterans enrolled at more 
than one-half time, at least three-quarter time, etc., then VA 
recommends the language be changed to be specific to the required level 
of enrollment.
    We will be pleased to provide an estimate of the cost of enactment 
of this bill for the record.
                               H.R. 1796
    H.R. 1796, the ``Troop Talent Act of 2013,'' proposes to ensure 
that the education and training provided members of the Armed Forces 
and Veterans better assists them in obtaining civilian certifications 
and licenses. VA respectfully defers to DoD's views on the merits of 
the proposals set forth in sections 3, 4(a), and 5 of this bill.
    Section 4(b) of the bill would allow Servicemembers or Veterans to 
use educational assistance provided through VA in pursuit of a civilian 
certification or license only if the successful completion of a 
curriculum fully qualifies such student to take the appropriate 
examination and be certified or licensed to meet any other academic 
conditions required for entry into that occupation or profession and, 
where specialized accreditation is required by a State, the curriculum 
meets the requirements for that accreditation by an agency recognized 
by the Department of Education or designated by the State. The 
amendments made by this section would take effect on August 1, 2014, 
and would apply to courses pursued on or after that date. VA does not 
oppose legislation that would allow us to pay for courses offered by 
educational institutions that are required to obtain employment in an 
occupation or profession that requires approval or licensure of a board 
or Stage agency. However, if the intent of the legislation is to allow 
GI Bill beneficiaries to take courses required for a license or 
certification that do not constitute a complete program of training, 
then it should be noted that VA can already approve benefits for those 
courses. Current statutory guidance requires schools to assess prior 
education or training, grant appropriate credit, and reduce the length 
of the overall program proportionally. Consequently, VA does not 
require new legislation to meet the intent of this provision.
    Section 6 of the bill would direct VA to reestablish the 
Professional Certification and Licensure Advisory Committee, which was 
terminated on December 31, 2006, with a new termination date of 
December 31, 2019. This section also would provide additional Committee 
duties, including the development of: (1) guidance for audits of 
licensure and certification programs in order to ensure high-quality 
education to Servicemembers and Veterans; and (2) a plan to improve 
outreach to Servicemembers and Veterans on the importance of licensing 
and certification and the availability of educational benefits. Not 
later than 180 days after the date of establishment of the Committee, 
it would submit to Congress a report containing an assessment of the 
feasibility and advisability of permitting Servicemembers to use 
educational assistance under the Montgomery GI Bill and the Post-9/11 
GI Bill to obtain or pursue civilian employment certifications or 
licenses without the use of such assistance for that purpose being 
charged against the entitlement of such Servicemembers to such 
educational assistance.
    VA does not support section 6, as we are not clear on the need to 
reestablish the Professional Certification and Licensure Advisory 
Committee if the only required deliverable is a report assessing the 
feasibility and advisability of permitting members of the Armed Forces 
to use educational assistance under Chapters 30 and 33 of title 38 to 
obtain or pursue civilian employment without them being charged 
entitlement. Other Committee tasks involve outreach and auditing for 
licensing and certification programs, which are tasks that VA already 
undertakes with respect to approved programs and training 
establishments.
    It would also be extremely challenging for VA tonominate members; 
plan, organize, and, subsequently, hold meetings; and provide a report 
within 180 days of enactment.
    We will be pleased to provide an estimate of the cost of enactment 
of this bill for the record.
                               H.R. 1842
    H.R. 1842 would amend the Servicemembers Civil Relief Act to 
improve the protections for Servicemembers, surviving spouses, and 
disabled Veterans against mortgage foreclosures, and for other 
purposes. While we defer to DoD regarding the merits of this 
legislation, we, nonetheless, have several concerns.
    One change is the requirement that a creditor stop foreclosure 
proceedings upon receipt of notice, since it might be irreconcilable 
with the provisions related to a court's authority to allow a 
foreclosure to proceed. As such, even if a court were to determine that 
a stay would be inequitable, a creditor might still be prohibited from 
foreclosing.
    Another concern is the ambiguity in proposed section 303A, which 
could lead to title problems that cannot be resolved, and to 
uncertainty about what effect ``notice'' has. It is not clear under 
subsection (c) whether a foreclosure would be invalid because the 
foreclosure occurred during a covered period, or if it would only be 
invalid during the covered period, after which a borrower would not 
have any right to object. Similarly, it is not clear what effect the 
invalidation of a sale would have on subsequent purchasers of a 
property if a wrongful foreclosure is alleged. In addition, the notice 
provisions of subsection (d) might allow a Servicemember to provide 
notice after a foreclosure and subsequent sale to a bona fide 
purchaser, which could result in a cloud on the title to the property 
or even an invalidation of that sale, and any subsequent sale.
    We also note that other ambiguities exist, such as how to measure 
aggregate duration of SCRA protections, and when criminal penalties 
might apply.
    Of additional concern is proposed section 303B, which would allow a 
Servicemember on active duty to refinance a mortgage when the 
Servicemember is unable to occupy the property because of active-duty 
status, raises a few technical and substantive issues for VA. The 
provision would establish a limitation on the frequency with which a 
Servicemember might refinance under the new provision - no more than 
once in a 5-year period. VA statutes do not include such a limitation. 
Unlike proposed section 303B, a Veteran is not required to certify 
occupancy to obtain a VA Interest Rate Reduction Refinance Loan. 
Deeming a property a residence might not always work to the 
Servicemember's benefit, as certain refinance programs require that the 
borrower cannot be an occupant. Under proposed section 303B, however, a 
Servicemember would not have a choice, as a creditor would be required 
to treat the property as the Servicemember's residence.
    H.R.1842 might have unintended effects on the interpretation of 
protections found in other SCRA provisions. For example, the reference 
to trust deeds in proposed section 303A(a)(2) could affect the 
interpretation of mortgage protections in current section 303 as well 
as those in proposed section 303B, because the term ``trust deed'' is 
newly introduced.
    We would be pleased to work with the Subcommittee staff and DoD in 
drafting amendments to address VA's concerns with this bill and with 
H.R. 821.
    Provisions of this bill may have an impact on VA loan subsidy 
costs. We will provide an estimate of cost for the record.
                               H.R. 2011
    H.R. 2011 would amend section 3692 of title 38, United States Code, 
to extend for 2 years (through fiscal year 2015) the Veterans' Advisory 
Committee on Education, which is set to expire on December 31, 2013. It 
would also add Veteran representatives, to the maximum extent 
practicable, from the post-9/11 operations in Iraq and Afghanistan to 
the Committee. Finally, it would add individuals receiving training 
under the vocational rehabilitation and employment program under 
chapter 31 of title 38, United States Code, to the list of those 
enrolled in programs of educational institution's representatives which 
form part of the Committee.
    Currently, section 3692(a) of title 38, United States Code, 
specifies that the Veterans' Advisory Committee on Education shall be 
composed of persons who are eminent in their respective fields of 
education, labor, and management and of representatives of institutions 
and establishments furnishing education to eligible Veterans or persons 
enrolled under Chapter 30, 32, 33, or 35 of this title and Chapter 1606 
of title 10. The Committee shall also, to the maximum extent 
practicable, include Veterans representative of World War II, the 
Korean conflict era, the post-Korean conflict era, the Vietnam era, the 
post-Vietnam era, and the Persian Gulf War.
    The legislation would amend section 3692(a) and change the 
composition of the Committee to include not only Veteran 
representatives of post-9/11 operations in Iraq and Afghanistan, but 
also representatives of institutions and establishments furnishing 
education to eligible Veterans or persons enrolled under Chapter 31..
    VA supports this legislation. If enacted, the Secretary would be 
able to continue to receive recommendations and seek advice from VA 
Committee on Education members with regard to the administration and 
proposals to enhance VA education benefit programs.
    Costs associated with this legislation are insignificant.
                               H.R. 2210
    H.R. 2210, the ``Marine Gunnery Sergeant John David Fry Scholarship 
Improvements Act of 2013,'' would amend current provisions of title 38, 
United States Code, to expand the universe of individuals who are 
entitled to educational assistance under the Post-9/11 GI Bill by 
virtue of the in-line-of-duty death of a parent serving on active duty 
in the Armed Forces to also include the child of an individual who: (1) 
is awarded the Purple Heart medal for an injury; and (2) dies as a 
result of such injury during the 60-day period beginning on the date of 
the individual's discharge or release from active-duty service in the 
Armed Forces. This amendment would apply with respect to the death of a 
specified Veteran occurring on or after September 11, 2001.
    VA supports the proposed legislation, subject to Congress 
identifying appropriate offsets for the additional costs. Benefit costs 
to VA are estimated to be $219 thousand during the first year, $2.4 
million for 5 years, and $5.8 million over 10 years. There are no 
additional full-time equivalent or General Operating Expenses cost 
requirements associated with this proposal.
    VA does note that Departmental data shows that most deaths 
resulting from serious injury occur during the first 18 months after 
the release from active duty. There are currently no provisions under 
the Post-9/11 GI Bill that would allow a child to receive benefits if 
his or her parent died of a service-connected injury or illness shortly 
after release from active duty. Estimated benefit costs to VA would 
increase to $942 thousand during the first year, $10.1 million for 5 
years, and $24.2 million over 10 years, if the legislation were 
expanded to provide Fry Scholarship benefits to children of active duty 
Servicemembers who die in the line of duty within 18 months of 
separation as a result of injuries incurred on active duty after 
September 10, 2001.
                               H.R. 2327
    H.R. 2327, ``Veterans Economic Opportunity Administration Act of 
2013,'' would amend title 38, United States Code, to establish in VA a 
new ``Veterans Economic Opportunity Administration.''
    Section 2 of the bill would establish the ``Veterans Economic 
Opportunity Administration'' to administer programs that provide 
assistance related to economic opportunity to Veterans and their 
dependents and Survivors. The new Administration would be under the 
aegis of the Under Secretary for Veterans Economic Opportunity, who 
would be directly responsible to the Secretary of Veterans Affairs. The 
new Administration would be responsible for the following VA programs:

    <bullet>  Vocational Rehabilitation and Employment;
    <bullet>  Educational Assistance;
    <bullet>  Veterans Housing Loan (and related programs); and
    <bullet>  Veterans Small Business Programs (including the program 
under 38 United States Code Sec.  8127).

    Section 3 of the bill would amend title 38, United States Code, to 
make the new Under Secretary position subject to appointment by the 
President with the advice and consent of the Senate. The new Under 
Secretary would be responsible for the operations of the Veterans 
Economic Opportunity Administration.
    The Secretary would be required to establish a commission to 
recommend individuals to the President for appointment to fill a 
vacancy when a position arises. The commission would be composed of the 
following members appointed by the Secretary:

    <bullet>  Three individuals representing education and training, 
vocational rehabilitation, employment, real estate, mortgage finance 
and related industries, and Survivor benefits activities affected by 
the new Administration.
    <bullet>  Two individuals representing Veterans served by the new 
administration.
    <bullet>  Two individuals with experience in the management of 
private sector benefits programs.
    <bullet>  The Deputy Secretary of Veterans Affairs.
    <bullet>  The Chairman of the Veterans' Advisory Committee on 
Education.
    <bullet>  One individual who has held the position of Under 
Secretary for Economic Opportunity, if the Secretary determines it is 
desirable.

    In addition, each individual recommended to the President by the 
commission must have held a senior-level position in the private sector 
with responsibilities in at least one of the following:

    <bullet>  Education policy;
    <bullet>  Vocational rehabilitation;
    <bullet>  Employment;
    <bullet>  Home loan finance; and
    <bullet>  Small business development.

    Finally, for fiscal year 2014, the aggregate number of full-time 
employees authorized for the Veterans Benefits Administration (VBA) and 
the Veterans Economic Opportunity Administration could not exceed 
20,851.
    While VA appreciates the Committee's focus on improving Veterans' 
economic opportunities, we are unable to support the proposed 
legislation, since we believe that an appropriate management structure 
is already in place to oversee Veteran programs related to economic 
opportunities.
    In 2011, the Office of Economic Opportunity (OEO) was established 
in VBA under the authority of the Under Secretary for Benefits to 
oversee all education benefits, loan guaranty services, and vocational 
rehabilitation and employment benefits and services for Veterans. 
Veteran employment initiatives, including Veterans' entrepreneurship-
training benefits provided through VBA's education program are also 
overseen by OEO. This Office provides focused attention and oversight 
to Veteran economic opportunity programs.
    Having the Under Secretary for Benefits oversee Veteran programs 
related to both economic opportunities and disability assistance 
ensures that there is coordination among benefit services, including 
compensation, pension, education, and home loan guaranties. This cross-
coordination avoids duplication of management support services within 
VA. In addition, maintaining a separate office within VBA (the Deputy 
Under Secretary for Economic Opportunity) to oversee the economic 
opportunity program offices allows for that office's leadership to be 
hired in a timely fashion whenever a vacancy arises.
    Additionally, VA is uncertain how the small business programs would 
be partitioned out from the existing Office of Small and Disadvantaged 
Business Utilization (OSDBU) to report to this new Administration. The 
legislation is vague with regard to what portions of OSDBU would be in 
this new structure.
    Lastly, the establishment of a new Administration within VA would 
require a substantial management structure to oversee administrative 
and support tasks. VA is concerned that this new management structure 
would result in significant administrative costs. VA also has concerns 
regarding imposing a ceiling on the number of employees authorized in 
VBA and the new Administration. As of May 2013, VBA had 21,240
    full-time employees. This legislation would not only reduce that 
number, but would also require the employees to be split between the 
two administrations.
    We will be pleased to provide an estimate of the cost of enactment 
of this bill for the record.
           Draft Legislation Affecting the Post-9/11 GI Bill
    This draft bill would repeal certain provisions of Public Law 110-
252 and amend subchapter III of chapter 33 of title 38, United States 
Code, to codify and improve the election requirements for the receipt 
of educational assistance under the Post 9/11 Veterans Educational 
Assistance program. Respectfully, we will be pleased to provide our 
full views and estimate of the cost of enactment of this draft bill for 
the record.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. I would be pleased to respond 
to questions you or the other Members of the Subcommittee may have 
regarding our views as presented.

                                 <F-dash>
                 Prepared Statement of Frank DiGiovanni
    Chairman Flores, Ranking Member Takano, and distinguished members 
of the Subcommittee, thank you for the opportunity to appear before you 
this afternoon to discuss legislation pending before the Subcommittee. 
My testimony today will be limited to H.R. 1796, ``Troop Talent Act of 
2013'', H.R. 1842, ``Military Family Home Act'', and H.R. 821. I defer 
to the views Department of Veterans Affairs on the remaining bills.
H.R. 1796, Troop Talent Act of 2013
    DoD supports many provisions contained in H.R. 1796 as they would 
greatly assist with our initiative to promulgate knowledge about 
licensing and credentialing and help secure greater opportunities for 
our Service members by leveraging their military service and training. 
The Department currently has several good resources which correlate 
military training to civilian certification and licenses. These include 
the Army's and Navy's Credentialing Opportunities On-Line (COOL) 
resources and the Air Force's Credentialing and Educational Research 
Tool. The Department will continue to improve these resources and 
capabilities. For example, we are incorporating lessons learned from 
ongoing efforts, including our credentialing and licensing pilot 
program required by section 588 of the National Defense Authorization 
Act of 2012 and our collaboration with the Department of Labor (DOL) on 
section 222 of the Veterans Opportunity to Work (VOW) to Hire Heroes 
Act (codified under title 10, United States Code).
    DoD is currently in the process of working with several State 
licensing and national certification agencies to develop and pilot 
standardized templates, technical data packages and methodologies. 
Through this cooperation, the Department will facilitate a licensing or 
credentialing agency's ability to assess the equivalency of military 
training, skills and experience. One best practice we are leveraging to 
address this requirement is the process Lansing (Michigan) Community 
College (LCC) uses to evaluate and award credits for training and 
experience to medics and corpsmen. In this process, LCC first analyzed 
the military's medics and corpsman programs of instruction from three 
different levels of mission complexity in order to establish 
appropriate amounts of academic credits across these three levels. In 
the second phase, LCC developed a two-day competency exam that allows 
them to award additional academic credit for Service member 
experiential knowledge and capabilities. The academic credit helps 
Servicemembers to become civilian paramedics.
    In section 3 of this legislation, we note the use of the term 
``accredited credentialing agencies'' would provide those agencies with 
improved access to military training content. We suggest that this 
access be expanded in the bill to include agencies approved by the 
Department of Veterans Affairs for GI Bill payment and State licensing 
boards. This will greatly expand the opportunities for Servicemembers 
to receive credit for their military training, education and 
experiences.
    We applaud the new authority in section 4 of the bill, to use 
educational assistance for courses in pursuit of civilian 
certifications or licenses. There is broad consensus within the 
Department in support of this expanded authority. The Department also 
fully supports section 5 of the bill which would require the 
credentialing and licensing pilot program to include Information 
Technology-related occupational specialties.
H.R. 1842, Military Family Home Protection Act
    The Military Home Protection Act proposes to amend the 
Servicemember Civil Relief Act (SCRA) to improve protections for 
Servicemembers, surviving spouses, and some veterans against mortgage 
foreclosures and includes protections for Servicemembers wishing to re-
finance mortgages on properties in which they no longer reside due to 
military changes of station.
    The Department supports the intent of H.R. 1842. Section 2 (a)(1) 
would amend 50 USC App 533 by adding new section 303A to expand 
protections for certain Servicemembers and surviving spouses, to 
obligations on real property that originated at any time. This is a 
considerable expansion in this area, as the SCRA applies currently only 
to pre-service obligations. This SCRA provision has traditionally 
offered these mortgage-related protections only to members of the 
Reserve Component, who are far more likely to have mortgage obligations 
prior to their entry on Active Duty. The Department supports this 
expansion.
    The amendments to 303A in section (a) propose to provide these 
expanded protections to certain Servicemembers serving in support of 
contingency operations; to certain veterans; and to surviving spouses 
of Servicemembers who died while serving in support of a contingency 
operation or who died while in military service whose death is service-
connected. This legislation includes a mechanism by which those covered 
individuals could invoke those protections by providing notice to 
lenders thereof. We support these actions.
    Section (f) would also amend the Act by providing several new 
definitions, including definitions of ``veterans,'' ``surviving 
spouses,'' and ``covered time periods.'' The Department believes it 
better for purposes of clarity, that all definitions be contained 
within section 511, but would not object if Congress determines it is 
necessary to provide specific definitions within this section for these 
categories of personnel.
    Lastly, we strongly support the intent of the bill's extension of 
re-financing provisions to military homeowners unable to live in their 
homes because they have received Permanent Change of Station orders 
away from them. This is a highly-desirable provision.
H.R. 821, To amend the Servicemembers Civil Relief Act to provide 
        surviving spouses with certain protections relating to 
        mortgages and mortgage foreclosures, and for other purposes.
    The Department does not object to H.R. 821 in its entirety, but 
prefers H.R. 1842. H.R. 821 is largely duplicative of the 
aforementioned H.R. 1842; the protections this legislation seeks to 
extend to surviving spouses are addressed in H.R. 1842. Also, H.R. 1842 
addresses those protections in a better form, as H.R. 1842 proposed 
adding a new section (50 USC App 533a, Section 313a of the SCRA) to 
convey these protections, rather than attempting to amend current 50 
USC App 533. In addition, H.R.1842 requires, properly, that the newly-
protected individuals must provide notification to creditors in order 
to receive protections, while H.R. 821 requires no such notification 
thereby placing the obligation upon the creditor. Placing the 
obligation on the creditor in this way also places costly obligations 
on the Department.
    The Department has no objections to Sections 2 and 3 of H.R. 821.
    Mr. Chairman, this concludes my statement. On behalf of the men and 
women in the Armed Forces and their families, I thank you and the 
members of this Subcommittee for your continued steadfast support.
Executive Summary
H.R. 1796, Troop Talent Act of 2013
    DoD supports many provisions contained in H.R. 1796 as they would 
greatly assist with our initiative to promulgate knowledge about 
licensing and credentialing and help secure greater opportunities for 
our Service members by leveraging their military service and training. 
In section 3 of this legislation, we note the use of the term 
``accredited credentialing agencies'' would provide those agencies with 
improved access to military training content. We suggest that this 
access be expanded in the bill to include agencies approved by the 
Department of Veterans Affairs for GI Bill payment and State licensing 
boards. This will greatly expand the opportunities for Servicemembers 
to receive credit for their military training, education and 
experiences. We applaud the new authority in section 4 of the bill, to 
use educational assistance for courses in pursuit of civilian 
certifications or licenses. There is broad consensus within the 
Department in support of this expanded authority. The Department also 
fully supports section 5 of the bill which would require the 
credentialing and licensing pilot program to include Information 
Technology-related occupational specialties.
H.R. 1842, Military Family Home Protection Act
    The Department supports the intent of H.R. 1842. Section 2 (a)(1) 
would amend 50 USC App 533 by adding new section 303A to expand 
protections for certain Servicemembers and surviving spouses, to 
obligations on real property that originated at any time. This is a 
considerable expansion in this area, as the SCRA applies currently only 
to pre-service obligations. This SCRA provision has traditionally 
offered these mortgage-related protections only to members of the 
Reserve Component, who are far more likely to have mortgage obligations 
prior to their entry on Active Duty. The Department supports this 
expansion. The amendments to 303A in section (a) propose to provide 
these expanded protections to certain Servicemembers serving in support 
of contingency operations; to certain veterans; and to surviving 
spouses of Servicemembers who died while serving in support of a 
contingency operation or who died while in military service whose death 
is service-connected. This legislation includes a mechanism by which 
those covered individuals could invoke those protections by providing 
notice to lenders thereof. We support these actions. Section (f) would 
also amend the Act by providing several new definitions, including 
definitions of ``veterans,'' ``surviving spouses,'' and ``covered time 
periods.'' The Department believes it better for purposes of clarity, 
that all definitions be contained within section 511, but would not 
object if Congress determines it is necessary to provide specific 
definitions within this section for these categories of personnel. 
Lastly, we strongly support the intent of the bill's extension of re-
financing provisions to military homeowners unable to live in their 
homes because they have received Permanent Change of Station orders 
away from them. This is a highly-desirable provision.
H.R. 821, To amend the Servicemembers Civil Relief Act to provide 
        surviving spouses with certain protections relating to 
        mortgages and mortgage foreclosures, and for other purposes.
    The Department does not object to H.R. 821 in its entirety, but 
prefers H.R. 1842. H.R. 821 is largely duplicative of the 
aforementioned H.R. 1842; the protections this legislation seeks to 
extend to surviving spouses are addressed in H.R. 1842. Also, H.R. 1842 
addresses those protections in a better form, as H.R. 1842 proposed 
adding a new section (50 USC App 533a, Section 313a of the SCRA) to 
convey these protections, rather than attempting to amend current 50 
USC App 533. In addition, H.R.1842 requires, properly, that the newly-
protected individuals must provide notification to creditors in order 
to receive protections, while H.R. 821 requires no such notification 
thereby placing the obligation upon the creditor. Placing the 
obligation on the creditor in this way also places costly obligations 
on the Department.
    The Department has no objections to Sections 2 and 3 of H.R. 821.

                                 <F-dash>
                 Prepared Statement of Ryan M. Gallucci
    Chairman Flores, Ranking Member Takano and members of the 
Subcommittee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, I want to thank 
you for the opportunity to present the VFW's stance on legislation 
pending before this Subcommittee.
H.R. 331, a bill to direct the Secretary of Veterans Affairs to permit 
        the centralized reporting of veteran enrollment by certain 
        groups, districts, and consortiums of educational institutions:
    The VFW supports Representative Ken Calvert's bill, which will 
allow educational institutions to report enrollments to VA as groups, 
districts or consortiums. This responsible piece of legislation will 
bring consistency across the different chapters of GI Bill benefits, 
making it easier for VA to determine beneficiary status and track 
student-veterans as they seek to accomplish their academic goals.
H.R. 821, a bill to amend the Servicemembers Civil Relief Act to 
        provide surviving spouses with certain protections relating to 
        mortgages and mortgage foreclosures, and for other purposes:
    The VFW supports Representative Alan Grayson's bill to extend 
Servicemembers Civil Relief Act (SCRA) protections for surviving 
spouses. The VFW believes it is unreasonable to hold survivors 
immediately accountable for rectifying difficult financial situations 
during times of extreme vulnerability resulting from the loss of a 
loved one in the line of duty. The VFW believes that this bill offers 
reasonable protections to allow survivors to manage their affairs 
before facing repercussions or the loss of a home. We hope the 
committee moves quickly on approving these reasonable protections.
H.R. 1357, a bill to amend the VOW to Hire Heroes Act of 2011 to 
        improve the Veterans Retraining Assistance Program by providing 
        assistance under such program for certain training programs 
        that are considered less than full-time:
    The VFW has heard from many veterans that the Veterans Retraining 
Assistance Program (VRAP) has helped them secure the skills necessary 
to succeed in a competitive job market. Unfortunately, the latest 
statistics from Department of Veterans Affairs (VA) on VRAP utilization 
still demonstrate that the benefit is drastically underutilized, even 
by veterans who are approved to participate in the program. The VFW 
believes that this unique benefit, which is designed to serve the 
largest population of unemployed veterans, has the potential to change 
the lives of many more veterans if we slightly modify some of the 
stringent program requirements, allowing veterans the flexibility to 
complete approved programs.
    The VFW raised concerns before this subcommittee in April that the 
requirement for all participants in the Veterans Retraining Assistance 
Program (VRAP) to attend as full time students prevented some from 
receiving necessary remediation to finish their programs. Furthermore, 
many veterans who qualify for VRAP may also need to balance other life 
obligations in order to pay their bills and complete their approved 
academic program. With these two issues in mind, the VFW is proud to 
support Representative Bill Johnson's bill, which would allow certain 
VRAP participants to utilize their benefits for programs less than full 
time.
H.R. 1796, Troop Talent Act of 2013:
    The VFW has been a vocal advocate to improve the transferability of 
military training and experience for veterans seeking civilian 
professional licenses and credentials. While the Department of Defense, 
private industry and state governments have made significant efforts in 
the last few years to improve the translation of military skills for 
these purposes, the VFW believes that we can do more, which is why we 
are proud to support Representative Tammy Duckworth's bill.
    In a recent town hall meeting with veterans' advocates, 
Representative Duckworth discussed how her personal military 
experiences as an officer afforded her countless professional 
development opportunities while on active duty. Unfortunately, her 
enlisted counterparts were not afforded similar opportunities to 
acquire skills that would prove useful in post military life.
    Through the ``Troop Talent Act,'' more military personnel will have 
access to civilian credentialing opportunities while on active duty. It 
allows service members to use educational assistance benefits to pursue 
civilian licenses and credentials, and expands the military's pilot 
program on civilian credentialing to include Information Technology. It 
also requires the Secretaries of each military department to make 
specific information on military training available to civilian 
credentialing bodies and reconstitutes VA's advisory committee on 
professional licensure and certification to ensure that licenses and 
credentials eligible for programmatic participation remain relevant to 
civilian careers.
    The VFW believes that unemployment in the veterans' community 
cannot be solved through post-military intervention alone, and that the 
military must better prepare its trained professionals to succeed after 
service. This bill helps to facilitate a service member's transition 
into a quality career after the military, and we encourage the 
committee to quickly pass it.
H.R. 1842, Military Family Home Protection Act:
    Over the last few years, the VFW has heard horror stories about 
companies foreclosing on military home owners while either their loved 
ones are overseas or recovering from life-altering injuries. While the 
Servicemembers Civil Relief Act (SCRA) offers some protections to 
vulnerable military families, the VFW believes that some financial 
institutions skirt the laws or even hold military status against 
certain families when extending credit or other financial services. The 
VFW believes that these practices must stop and we are proud to support 
Representative Elijah Cumming's bill to make this possible.
    This bill seeks to end predatory foreclosures on military families 
by extending SCRA protections for military families whose loved ones 
are not only deployed, but also permanent and total disabled, or who 
lost their lives in the line of duty regardless of when the mortgage 
was commissioned. This bill also strengthens criminal penalties against 
institutions that knowingly violate SCRA, and creates penalties for 
withholding or denying certain financial services for military families 
who claim SCRA protection.
    Never again should a military family worry that the bank will seize 
their home while their loved one is serving overseas or after their 
loved one has made the ultimate sacrifice. Military home owners face 
unique circumstances, and deserve these kinds of reasonable 
accommodations. A similar version of this bill almost passed last year 
as an amendment to the National Defense Authorization Act (NDAA). We 
hope this committee will once again move this legislation quickly, 
affording reasonable financial protections to our military families at 
times of extreme vulnerability.
H.R. 2150, Homeless Veterans' Reintegration Programs Reauthorization 
        Act of 2013:
    The VFW believes that the essential job training, placement and 
counseling services provided to homeless veterans through the Homeless 
Veterans' Reintegration Program (HVRP) remain critical to helping many 
veterans re-enter the labor force, ending the cycle of homelessness. 
The most recent figures offered by the Department of Labor Veterans 
Employment and Training Service (VETS) on the success of HVRP 
demonstrate that veterans who participate in the program have a job 
placement rate of more than 65 percent. To the VFW, this demonstrates 
quality program success for our veterans who need the most help.
    The authorization for HVRP appropriations is set to expire at the 
end of 2013, which is why the VFW is happy to support Representative 
Paul Cook's legislation to reauthorize the program through 2018. The 
VFW believes that the intensive services offered by VETS through HVRP 
are critical to helping our veterans find meaningful work and ending 
the cycle of homelessness. We urge Congress to quickly pass H.R. 2150.
H.R. 2210, Marine Gunnery Sergeant John David Fry Scholarship 
        Improvement Act of 2013:
    The VFW believes that Fry Scholarship program is a critical benefit 
that honors the sacrifices of our fallen heroes by ensuring the ones 
they leave behind have the tools necessary to succeed after their 
tragic loss through the Post-9/11 GI Bill. As written, the program only 
offers surviving children access to Post-9/11 GI Bill benefits if their 
parent dies specifically in the line of duty. Unfortunately, this 
leaves out survivors of those who die shortly after their military 
service as a result of a battlefield injury. The VFW believes that 
these survivors must also have access to the Fry Scholarship program, 
which is why we proudly support Representative Bill Young's 
legislation.
H.R. 2011, Veterans Advisory Committee on Education Improvement Act of 
        2013:
    The VFW supports Representative John Delaney's bill calling for the 
reauthorization of the VA Secretary's Advisory Committee on Education. 
The VFW believes that this committee is critical to identifying the 
challenges facing student-veterans and presenting responsible solutions 
to the Secretary directly from industry stakeholders. The VFW is 
disappointed that the committee has failed to meet over the last few 
years, at a critical time when nearly one million veterans are 
accessing their GI Bill benefits. Since the advisory committee is set 
to expire at the end of 2013, the VFW believes that Congress must 
extend the advisory committee at least through 2015. The military 
expects to transition at least 200,000 veterans each year for the next 
two years, many of whom will seek to use their lucrative GI Bill 
benefits. Now more than ever, this advisory committee is critical to 
ensuring potential student-veterans have the support they need to 
succeed in college life. Furthermore, the VFW believes that VA must 
revisit the committee's membership to ensure that members remain 
relevant in the veterans' education sphere, to ensure that academics, 
state agencies, and veterans have a voice in the discussion.
H.R. 2327, Veterans Economic Opportunity Administration Act of 2013:
    The VFW supports the concept of this bill, which would elevate the 
responsibility for veteran economic success in VA to the level of a 
presidentially-appointed VA Under Secretary for Economic Opportunity. 
Given the scope of responsibility for the current Under Secretary for 
Veterans Benefits, the VFW believes that many VA economic opportunity 
programs do not receive the level of attention they demand - 
particularly during a time of significant transition for our military 
when hundreds of thousands of new veterans are likely to enter the VA 
system.
    However, the VFW also has concerns about the proposal to elevate 
responsibility for VA economic programs. First, the VFW is concerned 
about interoperability between a new administration and the Veterans 
Benefits Administration (VBA). Certain economic opportunity benefits 
like Vocational Rehabilitation & Education (VR&E) rely on ratings 
decisions from VBA for eligibility. The VFW already sees difficulty in 
collaboration between VBA and the Veterans Health Administration (VHA), 
and we would want assurances that a new administration would not face 
similar bureaucratic hurdles.
    The VFW is also concerned about how a new administration would 
affect the roll-out and adoption of eBenefits among all new VA 
enrollees. Currently, all economic opportunity benefits are coordinated 
through the eBenefits portal, and we would hope that a new 
administration would not be charged with creating a separate gateway 
for economic opportunity programs, similar to the separate systems for 
VBA (eBenefits) and VHA (MyHealtheVet).
    Finally, the VFW has some concern about how the confirmation 
process would affect the ability of the administration to carry out its 
programs. As we saw recently with the disability claims backlog, years 
passed before the Senate could confirm an Under Secretary for VBA, 
making it difficult to hold VA leaders accountable for programmatic 
goals and potential shortcomings.
    The VFW agrees that we must elevate the discussion on veterans' 
economic opportunity. We generally support Chairman Jeff Miller's 
efforts to accomplish this and would be proud to support with 
assurances that the new administration would decisively improve the 
delivery of economic opportunity resources to our veterans.
A Draft Bill to amend title 38, United States Code, to codify and 
        improve the election requirements for the receipt of 
        educational assistance under the Post 9/11 Educational 
        Assistance program of the Department of Veterans Affairs:
    The VFW supports Chairman Bill Flores and his efforts to streamline 
how VA can approve initial claims for Post-9/11 GI Bill (Chapter 33) 
beneficiaries. While the Veterans Benefits Administration has been able 
to resolve its issues with supplemental Chapter 33 claims, allowing 
enrolled students to receive timely compensation, claims processors 
remain concerned that the time to approve initial claims remains too 
long, thanks to archaic business practices. Currently, claims 
processors must go through a time-intensive back-and-forth with 
potential student-veterans who accidentally revoke the wrong GI Bill 
benefit before they can properly enroll them in Chapter 33. This bill 
would allow VA to make a reasonable effort to contact the veteran to 
enroll them in the most lucrative benefit.
    The VFW does have concerns that as written, this bill could create 
unintended circumstances where a veteran may accidentally revoke the 
wrong benefit or enroll in a program that will not be the most 
beneficial, but we look forward to working with Chairman Flores to 
ensure that the language will not have any unintended consequences.
    The bill also adjusts how VA reimburses veterans eligible for the 
Montgomery GI Bill (Chapter 30) and who have paid into the benefit, but 
elect to use Chapter 33 instead. Currently, Chapter 30-eligible 
veterans who elect to use Chapter 33 must wait until they have finished 
using their benefits before VA can repay them for their Chapter 30 
contribution. Under this law, the Chapter 30 contribution would be 
prorated and added into living stipend payments while the veteran is 
enrolled in Chapter 33, meaning more money to help veterans make ends 
meet while they are on a fixed income as college students.
    Chairman Flores, Ranking Member Takano, this concludes my statement 
and I am happy to answer any questions you may have.
 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2013, nor has it 
received any federal grants in the two previous Fiscal Years.

                                 <F-dash>
                  Prepared Statement of Jeffrey Steele
    Chairman Flores, Ranking Member Takano and distinguished Members of 
the Subcommittee, on behalf of Commander Koutz and the 2.4 million 
members of The American Legion, we thank you and your colleagues for 
the work you do in support of our service members and veterans as well 
as their families. The hard work of this Subcommittee in creating 
significant legislation has left a positive impact on our military and 
veterans' community.
    The American Legion through its Economic Division is responsible 
for ensuring that U.S. veterans have the opportunity to provide, with 
honor and dignity, the economic necessities of life for themselves and 
their families. We are experts in programs involving veterans 
education, small business, employment, veterans preference, VA home 
loans, homeless veterans, training, licensing and certification, 
transition, USERRA, and other issues related to economics. We assist 
veterans in obtaining employment through our 170 veteran-targeted job 
fairs around the country with RecruitMilitary and Military.com, our two 
online partnerships with Avue and Monster, and provide information, 
guidance and, when appropriate, referrals for employment. Our Small 
Business Task Force can provide you tools to assist you in obtaining 
loans, technical assistance and other guidance. To end homelessness and 
prevent homelessness among veterans, we coordinate a Homeless Veterans 
Task Force to augment veteran service providers and fill in the gaps 
where no programs exist to assist veterans.
    As a grassroots organization, The American Legion draws upon the 
strength of its membership to provide guidance on policies in the form 
of resolutions passed during annual national conventions or at meetings 
of the National Executive Committee. The will of the membership of the 
Legion is expressed through these resolutions, which support or oppose 
policy decisions on topics of concern, whether for veterans, the 
children and youth of America, a strong national defense, or the 
principles of Americanism. The support and positions of The American 
Legion on any legislation is derived from the guidance of these 
resolutions and the founding documents of our organization.
                                H.R. 331
    To direct the Secretary of Veterans Affairs to permit the 
centralized reporting of veteran enrollment by certain groups, 
districts, and consortiums of educational institutions.

    This bill amends veterans' educational assistance program reporting 
requirements under which enrolled veterans (or eligible persons) and 
educational institutions must report enrollment information to the 
Secretary of Veterans Affairs (VA). It requires individuals and 
educational institutions participating in the post-Vietnam era and 
post-9/11 veterans' educational assistance programs to report to the 
Secretary such enrollment and any updates on interruption or 
termination of the education (thereby making the enrollment reporting 
requirements for the post-Vietnam and post-9/11 programs consistent 
with other veterans' educational programs). Finally, it defines 
``educational institution'' to permit the inclusion of groups, 
districts, or consortiums of separately accredited educational 
institutions located in the same state that are organized in a manner 
facilitating the centralized reporting of enrollments.
    Increasing program consistency and streamlining reporting 
requirements are often desirable administrative improvements. In this 
case, for example, community college districts in a state that have 
multiple schools would be allowed to centralize their veterans' 
educational assistance program reporting information and submit only 
one report for the district as a whole rather than having to submit 
multiple reports for each school. The American Legion is pleased to 
participate in and recognize ongoing efforts like this to improve the 
Department of Veterans Affairs' products, services and processes.
The American Legion supports this bill.
                                H.R. 821
    To amend the Servicemembers Civil Relief Act (SCRA) to provide 
surviving spouses with certain protections relating to mortgages and 
mortgage foreclosures, and for other purposes.
    This bill amends the Servicemembers Civil Relief Act, for five 
years after enactment of this Act, to afford surviving spouses of 
service members who die while in the military and whose death is 
service-connected the same protections against sale, foreclosure, and 
seizure of property currently applicable to their husbands who while in 
military service are unable to meet an obligation on real or personal 
property. It requires each lending institution subject to specified 
requirements for a maximum 6% rate of interest on a service member's 
debts incurred before military service to designate one of its 
employees as a compliance officer responsible for: (1) ensuring the 
institution's compliance with such requirements, and (2) distributing 
information to service members whose obligations and liabilities are 
covered by such requirements. Furthermore, it requires such a lending 
institution that had annual assets for the preceding fiscal year of $10 
billion or more to maintain a toll-free telephone number and make it 
available on its primary Internet website. Finally, it amends the 
Honoring America's Veterans and Caring for Camp Lejeune Families Act of 
2012 to extend through 2017 the period of specified protections for 
service members against mortgage foreclosures.
    The American Legion supports this effort to amend SCRA. Our service 
members should be afforded every reasonable protection and right 
possible when deployed in service to our nation. Additionally, these 
safeguards should be in place not only for our active-duty service 
members but should extend to their families in situations of serious 
injury or death.
The American Legion supports this bill.
                               H.R. 1357
    To amend the VOW to Hire Heroes Act of 2011 to improve the Veterans 
Retraining Assistance Program by providing assistance under such 
program for certain training programs that are considered less than 
full-time.
The American Legion has no position on this bill.
                  H.R. 1796: Troop Talent Act of 2013
    To ensure that the education and training provided members of the 
Armed Forces and veterans better assists members and veterans in 
obtaining civilian certifications and licenses, and for other purposes.
    A veteran employment measure designed to ease service members' 
transitions to civilian employment, this bill would bolster efforts to 
streamline the process of obtaining certifications and occupational 
licenses and help veterans put to use skills learned in the military.
    The American Legion has been urging federal and state lawmakers, as 
well as industry leaders, to streamline the military-to-civilian 
licensing and certification process for a decade and a half now. Most 
recently, our organization passed Resolution No. 326: Support Licensure 
and Certification of Active-Duty and Selected Reserve Personnel 
supporting efforts to eliminate employment barriers that impede the 
timely and successful transfer of military job skills to the civilian 
labor market. Enactment of legislation consistent with this effort, 
like the Troop Talent Act, will benefit not only the service member, 
but those who eventually employ him or her in the civilian work-force. 
By encouraging the Department of Defense to provide more information 
about military training and curriculum to organizations involved with 
private sector credentialing process, this legislation will help them 
better account for military training in the awarding of credentials. 
Continuing high levels of unemployment and ongoing troop withdrawals 
underscore the need to build job opportunities for returning veterans.
    Civilian credentialing can contribute to service member and veteran 
personal and professional career development if done right; however, 
the Department of Veteran Affairs (VA) lacks subject matter experts 
that can provide recommendations to improve VA's licensing and 
certification database; improve the quality of State Approving Agency 
(SAA) approval process; review applications used by the SAA's; and 
develop and update material on licensing and certification for use in 
training SAA staff.
    Therefore, it is extremely important that the Professional 
Certification and Licensure Advisory Committee (PCLAC) be reauthorized, 
another important provision in this bill. It will bring those subject 
matter experts to assist VA where they lack expertise in assessing 
certification and licensing programs, as well as assisting in the 
development of new material to support SAA's in the field.
    PCLAC, which was terminated in 2006, advised the Secretary of 
Veterans Affairs on VA's implementation of licensing and certification 
test provisions contained in Title 38, United States Code, Sec. 3689, 
and recommended administrative and/or legislative changes to improve 
that program. The Committee also monitored the nationwide consistency 
of the licensure and certification test approval process. The Committee 
submitted its recommendations and reports to the Secretary and could 
also submit its reports to the Congress.
    The last few years have seen a major cultural shift for the 
military, with top defense officials supporting service member 
credentialing, as well as expanded support for veteran credentialing on 
Capitol Hill with the passage of several Legion-sponsored and supported 
pieces of legislation.
    The American Legion believes there is a definite need to resume 
this independent body with expertise in matters relating to licensing 
and certification which can present new solutions to VA's senior 
leadership and congressional members as well as other stakeholders in 
light of the aforementioned developments.
The American Legion strongly supports this bill
             H.R. 1842: Military Family Home Protection Act
    To amend the Servicemembers Civil Relief Act (SCRA) to improve the 
protections for servicemembers, surviving spouses, and disabled 
veterans against mortgage foreclosures, and for other purposes.
    This legislation extends critical protections to our nation's 
service members, veterans with disabilities, and the surviving spouses 
of fallen heroes who have made the ultimate sacrifice to protect our 
nation. The bill ensures that the homes of service members are 
protected when they are most vulnerable--when they are placing their 
lives at risk overseas or recovering from service-related injuries here 
at home. Most importantly, this bill holds the banks accountable with 
higher civil penalties for mortgage-related violations and prohibits 
banks from discriminating against those service members, veterans, and 
surviving spouses protected under SCRA.
    Similar legislation supported by The American Legion passed 
overwhelmingly in the House of Representative during the last Congress 
by a vote of 394 to 27. Similar legislation was passed by the Senate 
Veterans' Affairs Committee, but was never considered on the Senate 
floor.
    Since the 2008 collapse of the real estate market, tens of 
thousands of military service members have lost their homes to 
foreclosure. America simply cannot afford to have our men and women in 
Afghanistan, or elsewhere, distracted by concerns over whether someone 
is seeking a default judgment against them back home, or evicting their 
spouse and children, or selling their house at an auction sale. This 
much needed legislation provides essential foreclosure protections for 
our heroes, who should not have to worry about losing their home while 
deployed overseas. Providing the flexibility laid out in this 
legislation is the least we can do for the brave men and women who put 
their lives on the line day in and day out.
The American Legion supports this bill.
H.R. 2011: Veterans' Advisory Committee on Education Improvement Act of 
                                  2013
    To amend title 38, United States Code, to provide for a two-year 
extension of the Veterans' Advisory Committee on Education.
    The Veterans' Advisory Committee on Education (VACOE) is composed 
of members who are prominent leaders in education/training, 
particularly in veterans' education and training. The American Legion 
has long served as a member and can attest from organizational 
experience to the value of this advisory committee. It is able to 
provide valuable insight and advice to the VA Secretary and Members of 
Congress. The American Legion believes there is a definite need to 
maintain this independent body that is able to analyze and develop 
intelligent, practical solutions to difficult educational issues and to 
present those solutions to VA's senior leadership and congressional 
members as well as other stakeholders.
    Salient issues include the need to help evaluate the implementation 
of Public Law 112-249, requiring schools to provide academic 
performance data to the VA and President Obama's Executive Order #13607 
establishing guidelines for institutions catering to service members, 
veterans or qualified family members. Also ripe for attention is the 
larger question of qualitative and quantitative metrics for assessing 
student outcomes.
    Lastly, VACOE meetings are open to the public. Any individual/group 
can attend and address VACOE with issues they wish to bring to the 
attention of VA leadership. In turn, this advisory committee can pass 
those concerns onto VA and Members of Congress.
The American Legion supports this bill.
 H.R. 2150: Homeless Veterans' Reintegration Programs Reauthorization 
                              Act of 2013
    To amend title 38, United States Code, to provide for a five-year 
extension to the homeless veterans reintegration programs.
    The American Legion notes there are still approximately 62,000 
homeless veterans on the street each night. This number, compounded 
with 160,000 service members entering the private sector each year 
since 2001 with at least a third of them potentially suffering from 
physical and/or mental injuries, indicates intensive and numerous 
programs are warranted to prevent and assist homeless veterans. The 
purpose of Homeless Veterans Reintegration Program (HVRP) is to provide 
services to assist in reintegrating homeless veterans into meaningful 
employment within the labor force and to stimulate the development of 
effective service delivery systems that will address the complex 
problems facing homeless veterans. HVRP is the only nationwide program 
that focuses on assisting homeless veterans to reintegrate into the 
workforce. It is an essential part of the strategy to meet to eliminate 
veteran homelessness by 2015.
The American Legion strongly supports the reauthorization of HVRP for 
        fiscal years 2013 to 2018.
     H.R. 2210: Marine Gunnery Sergeant John David Fry Scholarship 
                        Improvements Act of 2013
    To amend title 38, United States Code, to expand the eligibility of 
children of certain deceased veterans to educational assistance under 
the Post-9/11 Educational Assistance Program of the Department of 
Veterans Affairs.
    The Fry Scholarship was created by Public Law 111-32 in honor of 
Marine Gunnery Sergeant John David Fry and amended the Post 9/11 GI 
Bill to include the children of service members who die in the line of 
duty after September 10, 2001. This bill would make education benefits 
available to the children of service members awarded the Purple Heart 
for an injury and dies as a result of that injury during the 60-day 
period beginning on the date of the person's discharge or release from 
active duty service in the Armed Forces.
    As an unfortunate consequence of the global war on terror, many 
children of our active-duty military personnel are now members of 
single-parent families. It is estimated that over 11,000 children have 
lost a parent in the war overseas. That number continues to grow each 
day. The American Legion is deeply committed to the plight of the 
children whose parents die on active duty in service to this nation and 
we are actively working to ensure that all those children who want a 
post-secondary education will be provided one. That is why we 
established a Legacy Scholarship Fund to help meet the shortfalls these 
children experience, and there have been significant shortfalls in 
government money allotted to these children.
    The American Legion has been a leader in the passage and 
improvement of the GI Bill, from the original GI Bill in World War II, 
through the passage of the Post 9-11 GI Bill, through several 
iterations of Post 9-11 GI Bill Improvement Acts. The American Legion 
supports the full transferability of GI Bill benefits and approves of 
this expansion of better education benefits to additional children of 
those who have made the ultimate sacrifice.
The American Legion supports this bill.
                               H.R. 2327
    To amend title 38, United States Code, to establish in the 
Department of Veterans Affairs a Veterans Economic Opportunity 
Administration, and for other purposes
The American Legion has no position on this bill.
                               Draft bill
    To amend title 38, United States Code, to codify and improve the 
election requirements for the receipt of educational assistance under 
the Post 9/11 Educational Assistance program of the Department of 
Veterans Affairs.
    This bill represents another administrative improvement to the 
processing of the Post 9/11 GI Bill. The American Legion is pleased to 
participate in and recognize ongoing efforts like this to improve the 
Department of Veterans Affairs' products, services and processes.
The American Legion supports this bill.
    As always, The American Legion thanks this Subcommittee for the 
opportunity to explain the position of the over 2.4 million veteran 
members of this organization.
    For additional information regarding this testimony, please contact 
Mr. Jeffrey Steele at The American Legion's Legislative Division, 202-
263-2987 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e140d0a1b1b121b3e121b1917111050110c1950">[email&#160;protected]</a>

                                 <F-dash>
             Prepared Statement of MG Andrew ``Drew'' Davis
    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
nation's seven uniformed services and their spouses. ROA was founded in 
1922 during the drawdown years following the end of World War I. It was 
formed as a permanent institution dedicated to National Defense, with a 
goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``...support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.''
    The Association's 57,000 members include Reserve and Guard 
Soldiers, Sailors, Marines, Airmen, and Coast Guardsmen who frequently 
serve on Active Duty to meet critical needs of the uniformed services 
and their families. ROA's membership also includes commissioned 
officers from the U.S. Public Health Service and the National Oceanic 
and Atmospheric Administration who often are first responders during 
national disasters and help prepare for homeland security.
    ROA is a member of The Military Coalition where it co-chairs the 
Guard and Reserve Committee. ROA is also a member of the National 
Military/Veterans Alliance and the Associations for America's Defense. 
Overall, ROA works with 75 military, veterans, and family support 
organizations.

    President: Col. Walker Williams, USAF (Ret.) 202-646-7706

    Staff Contacts:

    Executive Director: Major General Andrew ``Drew'' Davis, USMC 
(Ret.) 202-646-7726

    Legislative Director: CAPT Marshall Hanson, USNR (Ret.) 202-646-
7713

    Air Force Director: Col. Bill Leake, USAFR 202-646-7713

    Army and Strategic Defense Education Director: Mr. ``Bob'' Feidler 
202-646-7717

    USNR, USMCR, USCGR: CAPT Marshall Hanson, USNR (Ret.) 202-646-7713

    Service Members' Law Center Director: CAPT Sam Wright, JAGC, USN 
(Ret.) 202-646-7730

    The Reserve Enlisted Association is an advocate for the enlisted 
men and women of the United States Military Reserve Components in 
support of National Security and Homeland Defense, with emphasis on the 
readiness, training, and quality of life issues affecting their welfare 
and that of their families and survivors. REA is the only joint Reserve 
association representing enlisted reservists - all ranks from all five 
branches of the military.

    Executive Director: CMSgt Lani Burnett, USAF (Ret) 202-646-7715
DISCLOSURE OF FEDERAL GRANTS OR CONTRACTS
    The Reserve Officers and Reserve Enlisted Associations are member-
supported organizations. Neither ROA nor REA have received grants, sub-
grants, contracts, or subcontracts from the federal government in the 
past three years. All other activities and services of the associations 
are accomplished free of any direct federal funding.
INTRODUCTION
    Mr. Chairman and members of the subcommittee, the Reserve Officers 
Association (ROA) and the Reserve Enlisted Association (REA) would like 
to thank the subcommittee for the opportunity to testify. ROA and REA 
applaud the ongoing efforts by Congress to address issues facing 
veterans and service members such as educational assistance programs, 
retraining assistance, solutions within the home loan programs, SCRA 
improvements, veteran homelessness and more.
    After 12 years of war, the United States has creating a new 
generation of combat veterans that come from its Reserve Components 
(RC). It is important, therefore, that we don't squander this valuable 
resource of experience, nor ignore the benefits that they are entitled 
to because of their selfless service to their country. ROA and REA 
would like to thank the committee and staff for making numerous 
improvements that have been made to date.
PENDING LEGISLATION
    Amending Servicemembers Civil Relief Act (SCRA) for protection of 
property

    In order to best support service members it is essential to also 
support the family. ROA and REA are thankful for the Department of 
Defense's (DoD), the administration's and Congressional acknowledgment 
that the military spouse is part of DoD's mission.
    ROA and REA encourage Congress to support H.R.821, introduced by 
Rep. Alan Grayson (Florida), which would amend the Servicemembers Civil 
Relief Act to provide surviving spouses with the same protections as 
serving members killed in the ``line of duty'' against sale, 
foreclosure and seizure of real and personal property.
    Spouses of deceased veterans or serving member must cope with the 
loss of the spouse who served while also getting their finances back in 
order and adapting to life without a partner. These spouses, coping 
with the loss of a spouse who was a warrior, have made sacrifices for 
the United States and should receive similar protections.
    The Associations also support H.R.1842, introduced by Rep. Elijah 
Cummings (Maryland) that permits courts to stay action against those 
serving in hostile fire areas, those convalescing or medically retired, 
or those who are surviving spouses from enforced obligations on real or 
personal property secured by mortgage. It also treats non-resident 
abodes as eligible for refinancing as a residence should a serving 
member be forced to relocate.
Education Amendments
    H.R.331, introduced by Rep. Ken Calvert (California), would include 
the Post 9/11 GI Bill and Post-Vietnam Veterans' Educational Assistance 
Program under the requirement for education institutions to report to 
the Secretary of Veteran Affairs about enrollments, interruptions or 
termination of the education. ROA and REA concur that it is important 
to track the progress of veteran students.
    Yet, returning veterans are often non-traditional students. 
Reporting measures should be developed for non-traditional student 
performances as well as for full time students. Before graduation the 
non-traditional student may leave and be re-admitted to a school 
several times, affected by priorities from current employment and 
family. Attrition numbers can appear higher if an individual is not 
tracked. The University Professional and Continuing Education 
Association found that 43 percent of institutions don't have systems to 
track the retention of a non-traditional student through graduation.
    Also, it should be remembered that over the last 12 years, students 
who are also in the Reserve and Guard have had to interrupt their 
studies when they were mobilized. It is hoped that such an interruption 
is viewed as being positive toward the students' reinstatement, rather 
than a down grade. The Department of Education has worked closely with 
educational institutions over the last decade, improving credit and 
tuition adjustments. In keeping with the spirit of cooperation 
established over the last decade, reported interruptions should not be 
held against either the student or the institution.
    H.R.1357, introduced by Rep. Bill Johnson (Ohio), recognizes the 
non-traditional student by expanding the Vow to Hire Heroes Act of 2011 
to cover ``less than full-time basis if the program consists of at 
least 16 seat-time hours.'' While the Associations support this bill, 
ROA and REA suggest that in the future education credit should be based 
on competency rather than seat time.
    Last March, the Department of Education took steps toward a more 
flexible and innovative financial aid system by allowing institutions 
of learning to award federal financial aid based on the amount of 
learning a student has achieved, rather than the amount of time he or 
she spend in classroom. In 2005, Congress created this alternative path 
to federal financial aid; it took the Department of Education seven 
years to implement it. ROA and REA hope that veteran education programs 
can adapt more rapidly.
    H.R.2011, introduced by Rep. John Delaney (Maryland), would include 
Chapter 31 of Title 38 under the purview of the Veterans' Advisory 
Committee on Education, and includes language to recognize the veterans 
of the Persian Gulf War, and post 9/11 contingency operations.
    Vocational rehab will be playing an important part of transitioning 
service connected disabled veterans back into the civilian life. 
Providing veterans with the resources they need to pursue personal and 
professional self-improvement through education and job training helps 
them replace a lost sense of purpose and builds a resilience required 
to overcome their personal challenges. The bill adds credence to this 
program that should also be extended into 2015.
    Absent from the Advisory Committee's review is Title 38 Chapter 
1607, which is an outgrowth of Chapter 1606. Selected Reservists who 
have taken advantage of the Montgomery GI Bill for Selected Reserve 
(Chapter 1606) when mobilized can get increased educational benefits 
under Chapter 1607. ROA and REA hope that H.R. 2011 can be amended to 
include this Chapter 1607 as well.
    H.R.2210, introduced by Rep. C.W. Bill Young (Florida) would expand 
the Marine Gunnery Sergeant John David Fry Scholarship from individuals 
who die in the ``line of duty'' while on active duty to include those 
who were awarded the Purple Heart, but die within 60-days of the date 
of discharge or release from active duty service in the Armed Forces. 
ROA and REA agree with recognizing of this group of heroes and that 
their families should be included under this scholarship.
    However, ROA and REA would like to see the bill amended to ensure 
that Reserve and Guard members are included under the definition of 
``line of duty.'' Reserve and Guard members serve under many different 
types of activation orders. While other benefits are often identified 
for Reserve Component members as being on duty for 30 or more days, 
Reserve and Guard members have been sent into combat areas on missions 
of shorter duration on other than ``active duty'' orders.
    Additionally, the Associations have a concern that US Code, as well 
as the amendment, limit this to just members of the Armed Forces. ROA 
and REA recommend the language be changed to ``uniformed service'' as 
members of the US Public Health Service and the NOAA corps have served 
overseas in imminent danger zones in support of contingency operations.
    H.R.1796, introduced by Rep. Tammy Duckworth (Illinois) directs the 
military secretaries to expand communications with serving members on 
civilian credentialing opportunities. While credentialing is one of the 
topics now being included in the reformed Transition Assistance Program 
(TAP), the earlier this is addressed the better it is both the 
individual and the service.
    There is an ongoing challenge on how to convert military skill sets 
into credited experience that would be recognized by civilian employers 
and provide longevity credit during a licensing or credentialing 
process. Cross-licensing/credentialing would ease the burden of having 
to acquire new licenses/credentials in the private sector after 
separation even though experience is gained to perform such duties 
during military service.
    Communications about credentialing must include the commanders in 
the field and encourage their participation. These commanders should 
evaluate their training programs and incorporate civilian criteria into 
the military training. Not only will serving members benefit by earning 
civilian credentials earlier, but the commands are likely to be able to 
utilize the broader skill sets that result from expanded training. ROA 
and REA concur with this bill.
Homeless Veterans
    H.R.2150, introduced by Rep. Paul Cook (California) would provide a 
five-year extension to the homeless veterans reintegration program. ROA 
and REA support an extension of that length to help stabilize the 
program.
Veterans Economic Opportunity Administration
    H.R.2327, introduced by Chairman Jeff Miller (Florida) reintroduces 
the establishment of the Veterans Economic Opportunity Administration 
that would be part of the Department of Veterans Affairs. The 
Administration would be under the new position of Under Secretary of 
Economic Opportunity.
    ROA and REA recognize that H.R.2327 is a different administrative 
structure that was suggested in the 2009 bill, and the Associations do 
not object to the concept. ROA and REA hope that with the establishment 
of such an organization, any duplication of services within the 
Departments of Veteran Affairs and Labor would be eliminated and the 
resources incorporated into the Veterans Economic Opportunity 
Administration.
    Another item to be considered with the establishment of the 
Veterans EO Administration would be to move the office of Veterans' 
Employment and Training Service (VETS) from the Department of Labor 
into the new organization.
CONCLUSION
    ROA and REA appreciate the opportunity to submit testimony, and we 
reiterate our profound gratitude for the progress achieved by this 
committee at improving a number of veteran benefits.
    ROA and REA look forward to working with the Subcommittee on 
Economic Opportunity and the House Veterans' Affairs Committee, where 
we can present solutions to future issues and offer our support.

                                 <F-dash>
                       Statements For The Record
                          HON. TAMMY DUCKWORTH
    Thank you to Chairman Miller, Subcommittee Chairman Flores, and 
Subcommittee Ranking Member Takano, and the House Veterans Affairs 
Committee Professional Staff for considering the following legislation. 
I greatly appreciate the time and energy you have all afforded the 
Troop Talent Act.
    This piece of legislation is one of my first efforts in the 
Congress to help both Service Members and Veterans transition into 
successful careers in the private sector and strengthen our economy. 
From my 21 years in the Army, and my time at both the Illinois and 
Federal Departments of Veterans Affairs, I know that we still have a 
long way to go make sure that our Service Members and Veterans have the 
tools they need to transition into successful careers in the private 
sector. The unemployment rate for those who have served in the military 
since 2001 is nearly 10%. That number is simply unacceptable. Our 
Service Members and Veterans deserve every opportunity to achieve the 
American Dream that they fought for, and nobody knows that better than 
you all on the Economic Opportunity Subcommittee.
    The bipartisan Troop Talent Act, which Representative Bilirakis , 
Takano, and a number of colleagues on this committee have cosponsored, 
will allow our servicemen and women to better transition into positions 
in the private sector. It will add to the current Transition GPS 
program and ask the military to, early and often, connect Service 
Members' Military Occupational Specialties with corresponding civilian 
credentials and possible future careers. It allows Service Members to 
use Military Tuition Assistance funding for courses that will earn them 
a credential while furthering their effectiveness while they are on 
active duty. It would also allow Veterans to use their Post 9/11 GI 
Bill benefits for credentialing and certification courses as well.
    Our Service Members and Veterans guarantee the quality of their 
work with their life and civilian employers are in need of that level 
of dedication and expertise. The Troop Talent Act will enable those who 
serve to make the transition to the private sector more easily and help 
our businesses thrive at the same time.
    The passage of the Troop Talent Act will be a victory for 
businesses, the military and our communities. Thank you all for your 
consideration of this legislation and for your leadership and service.

                                 <F-dash>
                        U.S. DEPARTMENT OF LABOR
                              Introduction
    Chairman Flores, Ranking Member Takano, and distinguished Members 
of the Subcommittee, thank you for the opportunity to provide the 
Department of Labor's (DOL or Department) views on legislation aimed at 
helping veterans and transitioning service members succeed in the 
civilian workforce. The Department looks forward to working with the 
Committee to ensure that the men and women who serve this country have 
the employment support, assistance, and opportunities they deserve.
    While this hearing is focused on numerous bills pending before the 
Subcommittee, I will limit my remarks to H.R. 2150, the ``Homeless 
Veterans Reintegration Programs Reauthorization Act of 2013.'' DOL 
respectfully defers to the Departments of Defense (DOD) and Veterans 
Affairs (VA) on the remainder of legislation before the committee.
 H.R. 2150 - Homeless Veterans Reintegration Programs Reauthorization 
                              Act of 2013
    The Department strongly supports H.R. 2150, the ``Homeless Veterans 
Reintegration Programs Reauthorization Act of 2013,'' which would 
reauthorize, through fiscal year 2018, the Department of Labor's 
Homeless Veterans Reintegration Program (HVRP). The Department is 
committed to the Administration's goal of ending veteran homelessness 
by 2015 and HVRP is the only nationwide program focusing exclusively on 
the training and employment of homeless veterans.
    The goal of HVRP is to provide employment and training services to 
homeless veterans so that they can be reintegrated into the labor 
force, and to stimulate the development of effective service delivery 
systems which address the complex problems homeless veterans face. 
Through the HVRP, the Department provides competitive grants to state 
and local Workforce Investment Boards, public agencies, Native American 
tribal governments and organizations, and private non-profit and for-
profit organizations, including faith-based and community-based 
organizations.
    Successful grant applicants must demonstrate their ability to 
provide intensive employment services to homeless veterans. 
Additionally, grantees are expected to integrate HVRP-funded services 
with supportive services from other Federal agencies, such as the 
Department of Veterans Affairs Grant and Per Diem and Supportive 
Services for Veteran Families (SSVF) grantees, Housing and Urban 
Development Veterans Affairs Supportive Housing resources, and Federal 
Emergency Management Administration (FEMA) Food and Shelter programs.
    HVRP operates on the principle that when homeless veterans attain 
meaningful and sustainable employment, they are on a path to self-
sufficiency and their susceptibility to homelessness is diminished. The 
HVRP program is employment-focused, ensuring that each veteran 
participant receives customized employment and training services. HVRP 
participants may receive instruction through occupational, classroom, 
or on-the-job training. HVRP also assists veterans with job searches 
and job placement. HVRP's client-centric, ``hands-on'' approach has 
successfully helped place thousands of previously-homeless veterans, 
some of whom were chronically homeless, on a path to self-sufficiency. 
H.R. 2150 would help ensure this important work continues.
                               Conclusion
    In conclusion, the Department strongly supports this legislation. 
Thank you for the opportunity to submit this statement for the record 
and for your continuing support of our Nation's veterans, transitioning 
service members, and their families.

                                 <F-dash>
                      VIETNAM VETERANS OF AMERICA
    Good morning, Chairman Flores, Chairman Takano and other 
distinguished members of the subcommittees on Oversight and 
Investigation and Economic Opportunity. The Vietnam Veterans of America 
(VVA) is pleased to have the opportunity to appear here today to 
express our views and pending legislation before this subcommittee.
    H.R.331 : Introduced by Rep. Ken Calvert (CA-42) - Amends veterans' 
educational assistance program reporting requirements under which 
enrolled veterans (or eligible persons) and educational institutions 
must report enrollment information to the Secretary of Veterans Affairs 
(VA). Requires individuals and educational institutions participating 
in the post-Vietnam era and post-9/11 veterans' educational assistance 
programs to report to the Secretary such enrollment and any updates on 
interruption or termination of the education (thereby making the 
enrollment reporting requirements for the post-Vietnam and post-9/11 
programs consistent with other veterans' educational programs).
    Defines ``educational institution'' to permit the inclusion of 
groups, districts, or consortiums of separately accredited educational 
institutions located in the same state that are organized in a manner 
facilitating the centralized reporting of enrollments.
    H.R.821 - Introduced b Rep. Alan Grayson (FL-9) - Amends the 
Servicemembers Civil Relief Act, for five years after enactment of this 
Act, to afford surviving spouses of servicemembers who die while in the 
military and whose death is service-connected the same protections 
against sale, foreclosure, and seizure of property currently applicable 
to their husbands who while in military service are unable to meet an 
obligation on real or personal property.
    Requires each lending institution subject to specified requirements 
for a maximum 6% rate of interest on a servicemember's debts incurred 
before military service to designate one of its employees as a 
compliance officer responsible for: (1) ensuring the institution's 
compliance with such requirements, and (2) distributing information to 
servicemembers whose obligations and liabilities are covered by such 
requirements.
    Requires such a lending institution that had annual assets for the 
preceding fiscal year of $10 billion or more to maintain a toll-free 
telephone number and make it available on its primary Internet website.
    Amends the Honoring America's Veterans and Caring for Camp Lejeune 
Families Act of 2012 to extend through 2017 the period of specified 
protections for servicemembers against mortgage foreclosures.
    H.R.1357 - Introduced by Rep. Bill Johnson(OH) - Amends the VOW to 
Hire Heroes Act of 2011 to permit retraining assistance under the 
Veterans Retraining Assistance Program to be used by a veteran to 
pursue a program of education for training on a less than full-time 
basis if the program consists of at least 16 seat-time hours (or the 
equivalent).
    H.R.1796 Introduced by Rep. Tammy Duckworth (IL-8) Troop Talent Act 
of 2013 - Directs the Secretaries of the military departments, to the 
maximum extent practicable, to make information on civilian 
credentialing opportunities available to members of the Armed Forces 
(members) beginning with, and at every stage of, their training for 
military occupational specialities, in order to permit such members to: 
(1) evaluate the extent to which such training correlates with skills 
and training required for various civilian certifications and licenses, 
and (2) assess the suitability of such training for obtaining and 
pursuing such certifications and licenses.
    Requires the information made available to: (1) be consistent with 
the Transition Goals Plans Success program, and (2) include information 
on the civilian occupational equivalents of military occupational 
specialties.
    Requires such Secretaries to make available to civilian 
credentialing agencies specified information on the content of military 
training provided to members.
    Allows members or veterans to use educational assistance provided 
through the Department of Defense (DOD) or the Department of Veterans 
Affairs (VA) in pursuit of a civilian certification or license only if 
the successful completion of a curriculum fully qualifies such student 
to take the appropriate examination and be certified or licensed to 
meet any other academic conditions required for entry into that 
occupation or profession.
    Requires the military occupational specialties designated for a 
military skills to civilian credentialing pilot program under the 
National Defense Authorization Act for Fiscal Year 2012 to include 
those specialties relating to the military information technology 
workforce.
    Directs the VA Secretary to reestablish the Professional 
Certification and Licensure Advisory Committee (under current law, 
terminated on December 31, 2006). Provides additional Committee duties, 
including the development of: (1) guidance for audits of licensure and 
certification programs in order to ensure high-quality education to 
members and veterans, and (2) a plan to improve outreach to members and 
veterans on the importance of licensing and certification and the 
availability of educational benefits.
    H.R.1842 Rep. Elijah E. Cummings (MD) - Military Family Home 
Protection - Amends the Servicemembers Civil Relief Act (the Act) to 
allow a court, in an action to enforce an obligation on real or 
personal property secured by a mortgage against a servicemember who is, 
or was, eligible for hostile fire or imminent danger pay during a 
period of military service, a servicemember placed on convalescent 
status, a veteran who was medically discharged and retired, or the 
surviving spouse of a member who died during military service, to stay 
such proceedings, upon request of a covered individual, for a specified 
period (generally, one year after the event occurred for which the 
individual became covered). Prohibits the sale, foreclosure, or seizure 
of the subject property during such period, except upon a court order 
or pursuant to an agreement authorized under the Act. Requires the 
individual so covered to notify the mortgagee, trustee, or other 
creditor of such coverage. Provides a criminal penalty for violations 
of the sale or foreclosure prohibitions, and increases current civil 
penalties for mortgage violations under the Act. Prohibits an 
individual from being denied or refused credit solely by reason of 
eligibility for relief under this Act.
    Requires a servicemember-mortgagor who does not reside in the 
mortgage-secured residence due to military relocation and who inquires 
about, or applies for, a refinancing to be considered to occupy such 
residence during the period of the relocation.
    Requires each lending institution acting as a creditor to such 
servicemember, veteran, or surviving spouse to designate an employee 
responsible for ensuring the institution's compliance with the 
requirements of this Act. Requires any such institution that had prior 
annual assets of $10 billion or more to maintain on its primary website 
a toll-free number for information concerning such requirements.
    H.R.2011 Introduced by John K. Delaney (MD 6): Veterans' Advisory 
Committee on Education Improvement Act of 2013 - Amend title 38, United 
States Code, to provide for a two-year extension of the Veterans' 
Advisory Committee on Education.
    H.R.2150 Introduced by Rep. Paul Cook (CA-8) Homeless Veterans' 
Reintegration Programs Reauthorization Act of 2013 - To amend title 38, 
United States Code, to provide for a five-year extension to the 
homeless veterans reintegration programs.
    H.R.2210 Introduced by Rep. C.W. Bill Young (FL-13): Marine Gunnery 
Sergeant John David Fry Scholarship Improvements Act of 2013 - To amend 
title 38, United States Code, to expand the eligibility of children of 
certain deceased veterans to educational assistance under the Post-9/11 
Educational Assistance Program of the Department of Veterans Affairs.
    H.R.2327 - Introduced by Rep. Jeff Miller (FL-1) - To amend title 
38, United States Code, to establish in the Department of Veterans 
Affairs a Veterans Economic Opportunity Administration, and for other 
purposes (bill not available on Thomas)
    Draft bill entitled, ``To amend title 38, United States Code, to 
authorize the Secretary of Veterans Affairs to make an alternative 
election on behalf of certain individuals who are subject to a bar to 
duplication of eligibility for educational assistance under the laws 
(Draft bill not available subcommittee needs to provide copy)
    Messrs. Chairmen, thank you for pursuing this vital issue, for your 
strong leadership in holding this hearing today, and for affording us 
this opportunity to present our views here today. I will be happy to 
answer any questions.
                      VIETNAM VETERANS OF AMERICA
                           Funding Statement
                             June 26, 2013
    The national organization Vietnam Veterans of America (VVA) is a 
non-profit veterans' membership organization registered as a 501(c) 
(19) with the Internal Revenue Service. VVA is also appropriately 
registered with the Secretary of the Senate and the Clerk of the House 
of Representatives in compliance with the Lobbying Disclosure Act of 
1995.
    VVA is not currently in receipt of any federal grant or contract, 
other than the routine allocation of office space and associated 
resources in VA Regional Offices for outreach and direct services 
through its Veterans Benefits Program (Service Representatives). This 
is also true of the previous two fiscal years.
    For Further Information, Contact: Executive Director of Policy and 
Government Affairs, Vietnam Veterans of America, (301) 585-4000, 
extension 127

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
